                                           56832                     Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           DEPARTMENT OF HEALTH AND                                Organization Quality Assessment/                        Dated: September 23, 2008.
                                           HUMAN SERVICES                                          Performance; Status of OPTN Living                    Elizabeth M. Duke,
                                                                                                   Donor Follow Up; Risks for Disease                    Administrator.
                                           Health Resources and Services                           Transmission; Factors Affecting Future                [FR Doc. E8–22821 Filed 9–29–08; 8:45 am]
                                           Administration                                          Donor Potential; Reimbursement and                    BILLING CODE 4165–15–P
                                                                                                   the Changing Nature of the Donor Pool;
                                           Notice of Meeting of the Advisory                       Projected Growth in End-Stage Renal
                                           Committee on Organ Transplantation                      Disease and Implications for Future                   DEPARTMENT OF HEALTH AND
                                           AGENCY: Health Resources and Services                   Demand for Kidney Transplants;                        HUMAN SERVICES
                                           Administration, HHS.                                    Economic Impact of Transplantation;
                                           ACTION: Notice of Meeting of the                        and Briefing on OPTN White Paper on                   Office of Inspector General
                                           Advisory Committee on Organ                             Charges for Pancreata Recovered for
                                                                                                   Islet Transplantation. The three ACOT                 OIG Supplemental Compliance
                                           Transplantation.                                                                                              Program Guidance for Nursing
                                                                                                   work groups also will update the full
                                           SUMMARY: Pursuant to Public Law 92–                     Committee on their deliberations on                   Facilities
                                           463, the Federal Advisory Committee                     living donor advocacy and post-                       AGENCY: Office of Inspector General
                                           Act, as amended (5 U.S.C. Appendix 2),                  donation complications, sources of                    (OIG), HHS.
                                           notice is hereby given of the fourteenth                funding for additional data collection,               ACTION: Notice.
                                           meeting of the Advisory Committee on                    and reducing pediatric deaths on the
                                           Organ Transplantation (ACOT),                           waitlist.                                             SUMMARY:    This Federal Register notice
                                           Department of Health and Human                                                                                sets forth the supplemental compliance
                                                                                                      The draft meeting agenda will be
                                           Services (HHS). The meeting will be                                                                           program guidance (CPG) for nursing
                                           held from approximately 8:30 a.m. to 5                  available on October 31 on the
                                                                                                   Department’s donation Web site at                     facilities developed by the Office of
                                           p.m. on November 13, 2008, and from                                                                           Inspector General (OIG). OIG is
                                           8:30 a.m. to 3 p.m. on November 14,                     http://www.organdonor.gov/acot.html.
                                                                                                                                                         supplementing its prior CPG for nursing
                                           2008, at the Hilton Washington DC/                         A registration form will be available              facilities issued in 2000. The
                                           Rockville Executive Meeting Center,                     on or about October 15. Registration can              supplemental CPG contains new
                                           1750 Rockville Pike, Rockville, MD                      be completed electronically at http://                compliance recommendations and an
                                           20852. The meeting will be open to the                  www.team-psa.com/dot/acot2008/.                       expanded discussion of risk areas. The
                                           public; however, seating is limited and                 Registration also can be completed                    supplemental CPG takes into account
                                           pre-registration is encouraged (see                     through the Department’s donation Web                 Medicare and Medicaid nursing facility
                                           below).                                                 site at http://www.organdonor.gov/                    payment systems and regulations,
                                           SUPPLEMENTARY INFORMATION: Under the
                                                                                                   acot.html. The completed registration                 evolving industry practices, current
                                           authority of 42 U.S.C. 217a, Section 222                form should be submitted by facsimile                 enforcement priorities (including the
                                           of the Public Health Service Act, as                    to Professional and Scientific Associates             Government’s heightened focus on
                                           amended, and 42 CFR 121.12 (2000),                      (PSA), the logistical support contractor              quality of care), and lessons learned in
                                           ACOT was established to assist the                      for the meeting, at fax number (703)                  the area of nursing facility compliance.
                                           Secretary in enhancing organ donation,                  234–1701. Individuals without access to               The supplemental CPG provides
                                           ensuring that the system of organ                       the Internet who wish to register may                 voluntary guidelines to assist nursing
                                           transplantation is grounded in the best                 call Sowjanya Kotakonda with PSA at                   facilities in identifying significant risk
                                           available medical science, and assuring                 (703) 234–1737. Individuals who plan to               areas and in evaluating and, as
                                           the public that the system is as effective              attend the meeting and need special                   necessary, refining ongoing compliance
                                           and equitable as possible, and, thereby,                assistance, such as sign language                     efforts.
                                           increasing public confidence in the                     interpretation or other reasonable
                                                                                                                                                         FOR FURTHER INFORMATION CONTACT:
                                           integrity and effectiveness of the                      accommodations, should notify the
                                                                                                                                                         Amanda Walker, Associate Counsel,
                                           transplantation system. ACOT is                         ACOT Executive Secretary, Remy
                                                                                                                                                         Office of Counsel to the Inspector
                                           composed of up to 25 members,                           Aronoff, in advance of the meeting. Mr.
                                                                                                                                                         General, (202) 619–0335; or Catherine
                                           including the Chair. Members are                        Aronoff may be reached by telephone at
                                                                                                                                                         Hess, Senior Counsel, Office of Counsel
                                           serving as Special Government                           301–443–3300, e-mail:
                                                                                                                                                         to the Inspector General, (202) 619–
                                           Employees and have diverse                              remy.aronoff@hrsa.hhs.gov or in writing
                                                                                                                                                         1306.
                                           backgrounds in fields such as organ                     at the address provided below.
                                           donation, health care public policy,                    Management and support services for                   Background
                                           transplantation medicine and surgery,                   ACOT functions are provided by the                      Beginning in 1998, OIG embarked on
                                           critical care medicine and other medical                Division of Transplantation, Healthcare               a major initiative to engage the private
                                           specialties involved in the identification              Systems Bureau, Health Resources and                  health care community in preventing
                                           and referral of donors, non-physician                   Services Administration, 5600 Fishers                 the submission of erroneous claims and
                                           transplant professions, nursing,                        Lane, Parklawn Building, Room 12C–06,                 in combating fraud and abuse in the
                                           epidemiology, immunology, law and                       Rockville, Maryland 20857; telephone                  Federal health care programs through
                                           bioethics, behavioral sciences,                         number 301–443–7577.                                  voluntary compliance efforts. As part of
                                           economics and statistics, as well as                       After the presentations and ACOT                   that initiative, OIG has developed a
                                           representatives of transplant candidates,               discussions, members of the public will               series of CPGs directed at the following
                                           transplant recipients, organ donors, and                have an opportunity to provide                        segments of the health care industry:
ebenthall on PROD1PC60 with NOTICES




                                           family members.                                         comments. Because of the Committee’s                  Hospitals; clinical laboratories; home
                                              ACOT will hear presentations on the                  full agenda and the timeframe in which                health agencies; third-party billing
                                           Report on New York State Transplant                     to cover the agenda topics, public                    companies; the durable medical
                                           Council’s Committee on Quality                          comment will be limited. All public                   equipment, prosthetics, orthotics, and
                                           Improvement in Living Kidney                            comments will be included in the                      supply industry; hospices; Medicare
                                           Donation; Organ Procurement                             record of the ACOT meeting.                           Advantage (formerly known as


                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00042   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                     56833

                                           Medicare+Choice) organizations;                          members of residents’ care teams, in                   B. Regular Review of Compliance Program
                                           nursing facilities; ambulance suppliers;                 achieving appropriate medication                          Effectiveness
                                           physicians; and pharmaceutical                           management in nursing facilities. Other              V. Self-Reporting
                                                                                                                                                         VI. Conclusion
                                           manufacturers.1 It is our intent that                    commenters suggested modifications to
                                           CPGs encourage the development and                       other aspects of the draft supplemental              I. Introduction
                                           use of internal controls to monitor                      CPG, including physician roles and                      Continuing its efforts to promote
                                           adherence to applicable statutes,                        contractual issues. The final                        voluntary compliance programs for the
                                           regulations, and program requirements.                   supplemental CPG incorporates                        health care industry, the Office of
                                           The suggestions made in the CPGs are                     clarifications responsive to these                   Inspector General (OIG) of the
                                           not mandatory, and nursing facilities                    comments. Several commenters                         Department of Health and Human
                                           should not view the CPGs as exhaustive                   suggested legislative or policy changes              Services (Department) publishes this
                                           discussions of beneficial compliance                     outside the scope of the supplemental                Supplemental Compliance Program
                                           practices or relevant risk areas.                        CPG, and those comments are not                      Guidance (CPG) for Nursing Facilities.5
                                              OIG originally published a CPG for                    addressed by the final supplemental                  This document supplements, rather
                                           the nursing facility industry on March                   CPG.                                                 than replaces, OIG’s 2000 Nursing
                                           16, 2000.2 Since that time, there have                      In the draft supplemental CPG, we                 Facility CPG, which addressed the
                                           been significant changes in the way                      specifically solicited suggestions                   fundamentals of establishing an
                                           nursing facilities deliver, and receive                  regarding specific measures of                       effective compliance program for this
                                           reimbursement for, health care services,                 compliance program effectiveness                     industry.6
                                           as well as significant changes in the                    tailored to nursing facilities. We did not              Neither this supplemental CPG, nor
                                           Federal enforcement environment and                      receive suggestions proposing such                   the original 2000 Nursing Facility CPG,
                                           increased concerns about quality of care                 measures, and therefore did not include              is a model compliance program. Rather,
                                           in nursing facilities, which continues to                an effectiveness measures section in the             the two documents collectively offer a
                                           be a high priority of OIG. In response to                final supplemental CPG.                              set of guidelines that nursing facilities
                                           these developments, and in an effort to                                                                       should consider when developing and
                                           receive initial input on this guidance                   OIG Supplemental Compliance
                                                                                                                                                         implementing a new compliance
                                           from interested parties, OIG published a                 Program Guidance for Nursing
                                                                                                                                                         program or evaluating an existing one.
                                           notice in the Federal Register on                        Facilities
                                                                                                                                                         We are mindful that many nursing
                                           January 24, 2008, seeking stakeholder                      This document is organized in the                  facilities have already devoted
                                           comments.3 After consideration of the                    following manner:                                    substantial time and resources to
                                           public comments and the issues raised,                                                                        compliance efforts. For those nursing
                                           OIG published a draft supplemental                       I. Introduction
                                                                                                       A. Benefits of a Compliance Program               facilities with existing compliance
                                           CPG for Nursing Facilities in the                                                                             programs, this document may serve as a
                                                                                                       B. Application of Compliance Program
                                           Federal Register on April 16, 2008, to                         Guidance                                       roadmap for updating or refining their
                                           ensure that that all parties had a                       II. Reimbursement Overview                           compliance plans. For facilities with
                                           reasonable and meaningful opportunity                       A. Medicare                                       emerging compliance programs, this
                                           to provide input into the final product.4                   B. Medicaid                                       supplemental CPG, read in conjunction
                                              We received seven comments on the                     III. Fraud and Abuse Risk Areas                      with the 2000 Nursing Facility CPG,
                                           draft document, all from trade                              A. Quality of Care
                                                                                                                                                         should facilitate discussions among
                                           associations. We also held stakeholder                      1. Sufficient Staffing
                                                                                                       2. Comprehensive Resident Care Plans              facility leadership regarding the
                                           meetings with the commenters who                                                                              inclusion of specific compliance
                                           chose to meet with us. OIG considered                       3. Medication Management
                                                                                                       4. Appropriate Use of Psychotropic                components and risk areas.
                                           the written comments and input from                                                                              In drafting this supplemental CPG, we
                                                                                                          Medications
                                           the meetings during the development of                      5. Resident Safety                                considered, among other things, public
                                           the final supplemental CPG.                                 (a) Promoting Resident Safety                     comments; relevant OIG and Centers for
                                           Commenters uniformly supported OIG’s                        (b) Resident Interactions                         Medicare & Medicaid Services (CMS)
                                           efforts to update the 2000 Nursing                          (c) Staff Screening                               statutory and regulatory authorities
                                           Facility CPG. Some of the commenters                        B. Submission of Accurate Claims                  (including CMS’s regulations governing
                                           suggested that OIG clarify the draft                        1. Proper Reporting of Resident Case-Mix          long-term care facilities at 42 CFR part
                                           supplemental CPG to reflect more fully                         by SNFs
                                                                                                       2. Therapy Services
                                                                                                                                                         483; CMS transmittals, program
                                           the role consultant pharmacists can                                                                           memoranda, and other guidance; and
                                                                                                       3. Screening for Excluded Individuals and
                                           play, in conjunction with other                                                                               the Federal fraud and abuse statutes,
                                                                                                          Entities
                                                                                                       4. Restorative and Personal Care Services         together with the anti-kickback safe
                                              1 Copies of the CPGs are available on our Web site
                                                                                                       C. The Federal Anti-Kickback Statute
                                           at http://www.oig.hhs.gov/fraud/
                                           complianceguidance.html.
                                                                                                       1. Free Goods and Services                           5 For purposes of convenience in this guidance,

                                                                                                       2. Service Contracts                              the term ‘‘nursing facility’’ or ‘‘facility’’ includes a
                                              2 See 65 FR 14289 (March 16, 2000), ‘‘Publication
                                                                                                       (a) Non-Physician Services                        skilled nursing facility (SNF) and a nursing facility
                                           of the OIG Compliance Program Guidance for                                                                    (NF) that meet the requirements of sections 1819
                                           Nursing Facilities’’ (2000 Nursing Facility CPG),           (b) Physician Services
                                                                                                                                                         and 1919 of the Social Security Act (Act) (42 U.S.C.
                                           available on our Web site at http://oig.hhs.gov/            3. Discounts                                      1395i–3, 1396r), respectively, as well as entities that
                                           authorities/docs/cpgnf.pdf.                                 (a) Price Reductions                              own or operate such facilities. Where appropriate,
                                              3 See 73 FR 4248 (January 24, 2008), ‘‘Solicitation      (b) Swapping                                      we distinguish SNFs from NFs. While long-term
                                           of Information and Recommendations for Revising             4. Hospices                                       care providers other than SNFs or NFs, such as
                                           the Compliance Program Guidance for Nursing                 5. Reserved Bed Payments                          assisted living facilities, should find this CPG
                                           Facilities,’’ available on our Web site at http://          D. Other Risk Areas                               useful, we recognize that they may be subject to
ebenthall on PROD1PC60 with NOTICES




                                           oig.hhs.gov/authorities/docs/08/                                                                              different laws, rules, and regulations and,
                                           CPG_Nursing_Facility_Solicitation.pdf.
                                                                                                       1. Physician Self-Referrals
                                                                                                                                                         accordingly, may have different or additional risk
                                              4 See 73 FR 20680 (April 16, 2008), ‘‘Draft OIG          2. Anti-Supplementation                           areas and may need to adopt different compliance
                                           Supplemental Compliance Program Guidance for                3. Medicare Part D                                strategies. We encourage all long-term care
                                           Nursing Facilities,’’ available on our Web site at          E. HIPAA Privacy and Security Rules               providers to establish and maintain effective
                                           http://oig.hhs.gov/fraud/docs/complianceguidance/        IV. Other Compliance Considerations                  compliance programs.
                                           NurseCPGIIFR.pdf.                                           A. An Ethical Culture                                6 See 2000 Nursing Facility CPG, supra note 2.




                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00043   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                           56834                     Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           harbor regulations and preambles); other                  • Increasing the likelihood of                      this guidance to its own particular
                                           OIG guidance (such as OIG advisory                      preventing unlawful and unethical                     circumstances.
                                           opinions, special fraud alerts, bulletins,              behavior or identifying and correcting                   In section II below, for contextual
                                           and other public documents);                            such behavior at an early stage;                      purposes, we provide a brief overview
                                           experience gained from investigations                     • Encouraging employees and others                  of the reimbursement system. In section
                                           conducted by OIG’s Office of                            to report potential problems, which                   III, entitled ‘‘Fraud and Abuse Risk
                                           Investigations, the Department of Justice               permits appropriate internal inquiry and              Areas,’’ we present several fraud and
                                           (DOJ), and the State Medicaid Fraud                     corrective action and reduces the risk of             abuse risk areas that are particularly
                                           Control Units; and relevant reports                     False Claims Act lawsuits, and                        relevant to the nursing facility industry.
                                           issued by OIG’s Office of Audit Services                administrative sanctions (e.g., penalties,            Each nursing facility should carefully
                                           and Office of Evaluation and                            assessments, and exclusion), as well as               examine these risk areas and identify
                                           Inspections. We also consulted with                     State actions;                                        those that potentially affect it. Next, in
                                           CMS, DOJ, and nursing facility resident                   • Minimizing financial loss to the                  section IV, ‘‘Other Compliance
                                           advocates.                                              Government and taxpayers, as well as                  Considerations,’’ we offer
                                              This supplemental CPG responds to                    corresponding financial loss to the                   recommendations for establishing an
                                           developments in the nursing facility                    nursing facility;                                     ethical culture and for assessing and
                                           industry, including significant changes                   • Enhancing resident satisfaction and               improving an existing compliance
                                           in the way nursing facilities deliver, and              safety through the delivery of improved               program. Finally, in section V, ‘‘Self-
                                           receive reimbursement for, health care                  quality of care; and                                  Reporting,’’ we set forth the actions
                                           services, evolving business practices,                    • Improving the nursing facility’s                  nursing facilities should take if they
                                           and changes in the Federal enforcement                  reputation for integrity and quality,                 discover credible evidence of
                                           environment. Moreover, this                             increasing its market competitiveness                 misconduct.
                                           supplemental CPG reflects OIG’s                         and reputation in the community.
                                           continued focus on quality of care in                     OIG recognizes that implementation                  II. Reimbursement Overview
                                           nursing facilities. Together with our law               of a compliance program may not                          We begin with a brief overview of
                                           enforcement partners, we have used,                     entirely eliminate improper or unethical              Medicare and Medicaid reimbursement
                                           with increasing frequency, Federal civil                conduct from nursing facility                         for nursing facilities as context for the
                                           fraud remedies to address cases                         operations. However, an effective                     subsequent risk areas section. This
                                           involving poor quality of care, including               compliance program demonstrates a                     overview is intended to be a summary
                                           troubling failure of care on a systemic                 nursing facility’s good faith effort to               only. It does not establish or interpret
                                           level in some organizations. To promote                 comply with applicable statutes,                      any program rules or regulations.
                                           compliance and prevent fraud and                        regulations, and other Federal health                 Nursing facilities are advised to consult
                                           abuse, OIG is supplementing the 2000                    care program requirements, and may                    the relevant program’s payment,
                                           Nursing Facility CPG with specific risk                 significantly reduce the risk of unlawful             coverage, and participation rules,
                                           areas related to quality of care, claims                conduct and corresponding sanctions.                  regulations, and guidance, which
                                           submissions, the Federal anti-kickback                  B. Application of Compliance Program                  change over time. Any questions
                                           statute, and other emerging areas.                      Guidance                                              regarding payment, coverage, or
                                           A. Benefits of a Compliance Program                                                                           participation in the Medicare or
                                                                                                      Given the diversity of the nursing
                                                                                                                                                         Medicaid programs should be directed
                                             Nursing facilities are vital to the                   facility industry, there is no single
                                                                                                                                                         to the relevant contractor, carrier, CMS
                                           health and welfare of millions of                       ‘‘best’’ nursing facility compliance
                                                                                                                                                         office, or State Medicaid agency.
                                           Americans. OIG recognizes that most                     program. OIG recognizes the
                                           facilities and the people who work in                   complexities of the nursing facility                  A. Medicare
                                           them strive daily to provide high                       industry and the differences among                       Medicare reimbursement to SNFs and
                                           quality, compassionate, cost-effective                  facilities. Some nursing facilities are               NFs depends on several factors,
                                           care to residents. A successful                         small and may have limited resources to               including the character of the facility,
                                           compliance program addresses the                        devote to compliance measures; others                 the beneficiary’s circumstances, and the
                                           public and private sectors’ common                      are affiliated with well-established,                 type of items and services provided.
                                           goals of reducing fraud and abuse,                      large, multi-facility organizations with a            Generally speaking, SNFs are Medicare-
                                           enhancing health care providers’                        widely dispersed work force and                       certified facilities that provide extended
                                           operations, improving the quality of                    significant resources to devote to                    skilled nursing or rehabilitative care
                                           health care services, and reducing their                compliance.                                           under Medicare Part A. They are
                                           overall cost. Meeting these goals                          Accordingly, OIG does not intend this              typically reimbursed under Part A for
                                           benefits the nursing facility industry,                 supplemental CPG to be a ‘‘one-size-fits-             the costs of most items and services,
                                           the Government, and residents alike.                    all’’ guidance. OIG strongly encourages               including room, board, and ancillary
                                           Compliance programs help nursing                        nursing facilities to identify and focus              items and services. In some
                                           facilities fulfill their legal duty to                  their compliance efforts on those areas               circumstances (discussed further
                                           provide quality care; to refrain from                   of potential concern or risk that are most            below), SNFs may receive payment
                                           submitting false or inaccurate claims or                relevant to their organizations. A                    under Medicare Part B. Facilities that
                                           cost information to the Federal health                  nursing facility should tailor its                    are not SNFs are not reimbursed under
                                           care programs; and to avoid engaging in                 compliance measures to address                        Part A. They may be reimbursed for
                                           other illegal practices.                                identified risk areas and to fit the                  some items and services under Part B.
                                             A nursing facility may gain important                 unique environment of the facility                       Medicare pays SNFs under a
ebenthall on PROD1PC60 with NOTICES




                                           additional benefits by voluntarily                      (including its structure, operations,                 prospective payment system (PPS) for
                                           implementing a compliance program,                      resources, the needs of its resident                  beneficiaries covered by the Part A
                                           including:                                              population, and prior enforcement                     extended care benefit.7 Covered
                                             • Demonstrating the nursing facility’s                experience). In short, OIG recommends
                                           commitment to honest and responsible                    that each nursing facility adapt the                    7 Section 1888(e) of the Act (42 U.S.C. 1395yy(e))

                                           corporate conduct;                                      objectives and principles underlying                  (noting the PPS rate applied to services provided on



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00044   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                    56835

                                           beneficiaries are those who require                     covered by this consolidated billing                   resident for Medicare billing
                                           skilled nursing or rehabilitation services              requirement include, by way of                         purposes.25 Accordingly, ancillary
                                           and receive the services from a                         example, physical therapy, occupational                services, including therapy services, are
                                           Medicare-certified SNF after a                          therapy, and speech therapy services;                  not subject to consolidated billing.26
                                           qualifying hospital stay of at least 3                  certain non-self-administered drugs and                Either the supplier of the ancillary
                                           days.8 The PPS rate is a fixed, per diem                supplies furnished ‘‘incident to’’ a                   service or the facility may bill the
                                           rate.9 The maximum benefit is 100 days                  physician’s services (e.g., ointments,                 Medicare carrier for the Part B items and
                                           per ‘‘spell of illness.’’ 10                            bandages, and oxygen); braces and                      services directly.27 In these
                                              CMS adjusts the PPS per diem rate                    orthotics; and the technical component                 circumstances, it is the joint
                                           per resident to ensure that the level of                of most diagnostic tests.17 These items                responsibility of the facility and the
                                           payment made for a particular resident                  and services must be billed to Medicare                supplier to ensure that only one of them
                                           reflects the resource intensity that                    by the SNF.18                                          bills Medicare.
                                           would typically be associated with that                    The consolidated billing requirement                  Part B coverage for durable medical
                                           resident’s clinical condition.11 This                   does not apply to a small number of                    equipment (DME) presents special
                                           methodology, referred to as the                         excluded services, such as physician                   circumstances because the benefit
                                           Resource Utilization Group (RUG)                        professional fees and certain ambulance                extends only to items furnished for use
                                           classification system, currently in                     services.19 These excluded services are                in a patient’s home.28 DME furnished
                                           version RUG-III, uses beneficiary                       separately billable to Part B by the                   for use in an SNF or in certain other
                                           assessment data extrapolated from the                   individual or entity furnishing the                    facilities providing skilled care is not
                                           Minimum Data Set (MDS) to assign                        service. For example, professional                     covered by Part B. Instead, such DME is
                                           beneficiaries to one of the RUG-III                     services furnished personally by a                     covered by the Part A PPS payment or
                                           groups.12 The MDS is composed of data                   physician to a Part A SNF resident are                 applicable inpatient payment.29 In some
                                           variables for each resident, including                  excluded from consolidated billing and                 cases, NFs that are not SNFs can be
                                           diagnoses, treatments, and an evaluation                are billed by the physician to the Part                considered a ‘‘home’’ for purposes of
                                           of the resident’s functional status,                    B carrier.20                                           DME coverage under Part B.30
                                           which are collected via a Resident                         Some Medicare beneficiaries reside in
                                                                                                   a Medicare-certified SNF, but are not                  B. Medicaid
                                           Assessment Instrument (RAI).13 Such
                                           assessments are conducted at                            eligible for Part A extended care benefits               Medicaid provides another means for
                                           established intervals throughout a                      (e.g., a beneficiary who did not have a                nursing facility residents to pay for
                                           resident’s stay. The resident’s RUG                     qualifying hospital stay of at least 3 days            skilled nursing care, as well as room
                                           assignment and payment rate are then                    or a beneficiary who has exhausted his                 and board in a nursing facility certified
                                           adjusted accordingly for each interval.14               or her Part A benefit). These                          by the Government to provide services
                                              The PPS payments cover virtually all                 beneficiaries—sometimes described as                   to Medicaid beneficiaries. Medicaid is a
                                           of the SNF’s costs for furnishing                       being in ‘‘non-covered Part A stays’’—                 State and Federal program that covers
                                           services to Medicare beneficiaries                      may still be eligible for Part B coverage              certain groups of low-income and
                                           covered under Part A. Under the                         of certain individual services.                        medically needy people. Medicaid also
                                           ‘‘consolidated billing’’ rules, SNFs bill               Consolidated billing would not apply to                helps residents dually eligible for
                                           Medicare for most of the services                       such individual services, with the                     Medicare and Medicaid pay their
                                           provided to Medicare beneficiaries in                   exception of therapy services.21                       Medicare premiums and cost-sharing
                                           SNF stays covered under Part A,                         Physical therapy, occupational therapy,                amounts. Because Medicaid eligibility
                                           including items and services that                       and speech language pathology services                 criteria, coverage limitations, and
                                           outside practitioners and suppliers                     furnished to SNF residents are always                  reimbursement rates are established at
                                           provide under arrangement with the                      subject to consolidated billing.22 Claims              the State level, there is significant
                                           SNF.15 The SNF is responsible for                       for therapy services furnished during a                variation across the nation. Many States,
                                           paying the outside practitioners and                    non-covered Part A stay must be                        however, pay nursing facilities a flat
                                           suppliers for these services.16 Services                submitted to Medicare by the SNF                       daily rate that covers room, board, and
                                                                                                   itself.23 Thus, according to CMS                       routine care for Medicaid beneficiaries.
                                           or after July 1, 1998). See also CMS, ‘‘Consolidated    guidance, the SNF is reimbursed under                  III. Fraud and Abuse Risk Areas
                                           Billing,’’ available on CMS’s Web site at http://       the Medicare fee schedule for the
                                           www.cms.hhs.gov/SNFPPS/                                                                                           This section should assist nursing
                                           05_ConsolidatedBilling.asp.                             therapy services, and is responsible for
                                             8 Sections 1812(a)(2) and 1861(i) of the Act (42      reimbursing the therapy provider.24                    facilities in their efforts to identify
                                           U.S.C. 1395d(a)(2), 1395x(i)).                             When a beneficiary resides in a                     operational areas that present potential
                                             9 Section 1888(e) of the Act (42 U.S.C. 1395yy(e)).
                                                                                                   nursing facility (or part thereof) that is             liability risks under several key Federal
                                             10 Section 1812(a)(2)(A) of the Act (42 U.S.C.
                                                                                                   not certified as an SNF by Medicare, the               fraud and abuse statutes and
                                           1395d(a)(2)(A)).
                                                                                                   beneficiary is not considered an SNF                   regulations. This section focuses on
                                             11 Section 1888(e)(4)(G)(i) of the Act (42 U.S.C.
                                                                                                                                                          areas that are currently of concern to the
                                           1395yy(e)(4)(G)(i)).                                                                                           enforcement community. It is not
                                                                                                      17 Section 1888(e) of the Act (42 U.S.C. 1395yy);
                                             12 Id.
                                             13 Sections 1819(b)(3) and 1919(b)(3) of the Act      Consolidated Billing, supra note 7.                    intended to address all potential risk
                                           (42 U.S.C. 1395i–3(b)(3), 1396r(b)(3)), and their
                                                                                                      18 Id.                                              areas for nursing facilities. Identifying a
                                           implementing regulation, 42 CFR 483.20, require
                                                                                                      19 Id.
                                                                                                                                                          particular practice or activity in this
                                                                                                      20 Id.
                                           nursing facilities participating in the Medicare or                                                            section is not intended to imply that the
                                           Medicaid programs to use a standardized RAI to             21 Section 1888(e)(2)(A) of the Act (42 U.S.C.
                                                                                                                                                          practice or activity is necessarily illegal
                                           assess each nursing facility resident’s strengths and   1395yy(e)(2)(A)); CMS, ‘‘Skilled Nursing Facilities
                                           needs.                                                  (SNF) Consolidated Billing (CB) as It Relates to
                                                                                                                                                            25 Id.
ebenthall on PROD1PC60 with NOTICES




                                             14 See id.                                            Therapy Services,’’ MLN Matters Number: SE0518
                                                                                                                                                            26 Id.
                                             15 Sections 1842(b)(6)(E) and 1862(a)(18) of the      (MLN Matters SE0518), available on CMS’s Web site
                                           Act (42 U.S.C. 1395u, 1395aa); Section 1888(e) of       at http://www.cms.hhs.gov/MLNMattersArticles/            27 Id.

                                           the Act (42 U.S.C. 1395yy(e)) (noting the PPS rate      downloads/SE0518.pdf.                                    28 Section 1861(n) of the Act (42 U.S.C. 1395x(n)).
                                                                                                      22 Id.
                                           applied to services provided on or after July 1,                                                                 29 Section 1861(h)(5) of the Act (42 U.S.C.
                                           1998). See also Consolidated Billing, supra note 7.        23 MLN Matters SE0518, supra note 21.               1395x(h)(5)).
                                             16 See id.                                               24 Id.                                                30 Section 1861(n) of the Act (42 U.S.C. 1395x(n)).




                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00045   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM      30SEN1
                                           56836                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           in all circumstances or that it may not                  compliance with applicable quality of                    1. Sufficient Staffing
                                           have a valid or lawful purpose. This                     care standards and regulations is                           OIG is aware of facilities that have
                                           section addresses the following areas of                 essential for the lawful behavior and                    systematically failed to provide staff in
                                           significant concern for nursing facilities:              success of nursing facilities.                           sufficient numbers and with appropriate
                                           Quality of care, submission of accurate                     Nursing facilities that fail to make                  clinical expertise to serve their
                                           claims, Federal anti-kickback statute,                   quality a priority, and consequently fail                residents. Although most facilities strive
                                           other risk areas, and Health Insurance                   to deliver quality health care, risk                     to provide sufficient staff, nursing
                                           Portability and Accountability Act of                    becoming the target of governmental
                                                                                                                                                             facilities must be mindful that Federal
                                           1996 (HIPAA) privacy and security                        investigations. Highlighted below are
                                                                                                                                                             law requires sufficient staffing necessary
                                           rules.                                                   common risk areas associated with the
                                                                                                                                                             to attain or maintain the highest
                                              This guidance does not create any                     delivery of quality health care to
                                                                                                                                                             practicable physical, mental, and
                                           new law or legal obligations, and the                    nursing facility residents that frequently
                                                                                                                                                             psychosocial well-being of residents.35
                                           discussions in this guidance are not                     arise in enforcement cases. These
                                                                                                                                                             Thus, staffing numbers and staff
                                           intended to present detailed or                          include sufficient staffing,
                                                                                                                                                             competency are critical.
                                           comprehensive summaries of lawful or                     comprehensive care plans, medication                        The relationship between staff ratios,
                                           unlawful activity. This guidance is not                  management, appropriate use of                           staff competency, and quality of care is
                                           intended as a substitute for consultation                psychotropic medications, and resident
                                                                                                                                                             complex.36 No single staffing model will
                                           with CMS, a facility’s fiscal                            safety. This list is not exhaustive.
                                                                                                                                                             suit every facility. A staffing model that
                                           intermediary or Program Safeguard                        Moreover, nursing facilities should
                                                                                                                                                             works in a nursing facility today may
                                           Contractor, a State Medicaid agency, or                  recognize that these issues are often
                                                                                                                                                             not meet the facility’s needs in the
                                           other relevant State agencies with                       inter-related. Nursing facilities that
                                                                                                                                                             future. Nursing facilities, therefore, are
                                           respect to the application and                           attempt to address one issue will often
                                                                                                                                                             strongly encouraged to assess their
                                           interpretation of payment, coverage,                     find that they must address other areas
                                                                                                                                                             staffing patterns regularly to evaluate
                                           licensure, or other provisions that are                  as well. The risk areas identified in
                                                                                                                                                             whether they have sufficient staff
                                           subject to change. Rather, this guidance                 sections III.B. (Submission of Accurate
                                                                                                                                                             members who are competent to care for
                                           should be used as a starting point for a                 Claims), III.C. (Anti-Kickback), and III.D.
                                                                                                    (Other Risk Areas) below are also                        the unique acuity levels of their
                                           nursing facility’s legal review of its                                                                            residents.
                                           particular practices and for                             intertwined with quality of care risk
                                                                                                                                                                Important considerations for assessing
                                           development or refinement of policies                    areas and should be considered as well.
                                                                                                       As a starting point, nursing facilities               staffing models include, among others,
                                           and procedures to reduce or eliminate                                                                             resident case-mix, staff skill levels, staff-
                                           potential risk.                                          should familiarize themselves with 42
                                                                                                    CFR part 483 (part 483), which sets forth                to-resident ratios, staff turnover,37
                                           A. Quality of Care                                       the principal requirements for nursing                   staffing schedules, disciplinary records,
                                                                                                    facility participation in the Medicare                   payroll records, timesheets, and adverse
                                              By 2030, the number of older
                                           Americans is estimated to rise to 71                     and Medicaid programs. It is essential
                                                                                                                                                             25_ODF_SNFLTC.asp; CMS, ‘‘State Operations
                                           million,31 making the aging of the U.S.                  that key members of the organization                     Manual,’’ Pub. No. 100–07, available on CMS’s Web
                                           population ‘‘one of the major public                     understand these requirements and                        site at http://www.cms.hhs.gov/Manuals/IOM/
                                           health challenges we face in the 21st                    support their facility’s commitment to                   list.asp; see also Medicare Quality Improvement
                                                                                                    compliance with these regulations.                       Community, ‘‘MedQIP—Medicare Quality
                                           century.’’ 32 In addressing this                                                                                  Improvement Community,’’ available on CMS’s
                                           challenge, a national focus on the                       Targeted training for care providers,                    Web site at http://www.medqic.org. Nursing
                                           quality of health care is emerging.                      managers, administrative staff, officers,                facilities may also find it useful to review the CMS
                                              In cases that involve failure of care on              and directors on the requirements of                     Quality Improvement Organizations Statement of
                                                                                                    part 483 will help nursing facilities                    Work, available at http://www.cms.hhs.gov/
                                           a systemic and widespread basis, the                                                                              QualityImprovementOrgs/04_9thsow.asp. In
                                                                                                    ensure that they are fulfilling their
                                           nursing facility may be liable for                                                                                addition, facilities may wish to stay abreast of
                                                                                                    obligation to provide quality health                     emerging best practices, which are often promoted
                                           submitting false claims for
                                                                                                    care.34                                                  by industry associations.
                                           reimbursement to the Government                                                                                      35 Sections 1819(b)(4)(A) and 1919(b)(4)(A) of the
                                           under the Federal False Claims Act, the                                                                           Act (42 U.S.C. 1395i–3(b)(4)(A), 1396r(b)(4)(A)); 42
                                                                                                    (concerning obstruction of a Federal audit); the
                                           Civil Monetary Penalties Law (CMPL),                     Federal False Claims Act (31 U.S.C. 3729–3733);          CFR 483.30.
                                           or other authorities that address false                  section 1128A of the Act (42 U.S.C. 1320a–7a)               36 For example, State nursing facility staffing

                                           and fraudulent claims or statements                      (concerning civil monetary penalties); section           standards, which exist for the majority of States,
                                                                                                    1128B(c) of the Act (42 U.S.C. 1320a–7b(c))              vary in types of regulated staff, the ratios of staff,
                                           made to the Government.33 Thus,                          (concerning false statements or representations with     and the facilities to which the regulations apply.
                                                                                                    respect to condition or operation of institutions). In   See Jane Tilly, et al., ‘‘State Experiences with
                                              31 Centers for Disease Control and Prevention
                                                                                                    addition to the Federal criminal, civil, and             Minimum Nursing Staff Ratios for Nursing
                                           (CDC), ‘‘The State of Aging and Health in America        administrative liability for false claims and            Facilities: Findings from Case Studies of Eight
                                           2007,’’ available on CDC’s Web site at http://           kickback violations outlined in this CPG, nursing        States’’ (November 2003) (joint paper by The Urban
                                           www.cdc.gov/aging/pdf/saha_2007.pdf.                     facilities also face exposure under State laws,          Institute and the Department), available at http://
                                              32 Id. (quoting Julie Louise Gerberding, M.D.,        including criminal, civil, and administrative            aspe.hhs.gov/daltcp/reports/8statees.htm.
                                           MPH, Director, CDC, U.S. Department of Health and        sanctions.                                                  37 Nursing facilities operate in an environment of
                                           Human Services).                                            34 The requirement to deliver quality health care     high staff turnover where it is difficult to attract,
                                              33 ‘‘Listening Session: Abuse of Our Elders: How      is a continuing obligation for nursing facilities. As    train, and retain an adequate workforce. Turnover
                                           We Can Stop It: Hearing Before the Senate Special        regulations change, so too should the training.          among nurse aides, who provide most of the hands-
                                           Committee on Aging,’’ 110th Congress (2007)              Therefore, this recommendation envisions more            on care in nursing facilities, means that residents
                                           (testimony of Gregory Demske, Assistant Inspector        than an initial employee ‘‘orientation’’ training on     are constantly receiving care from new staff who
                                           General for Legal Affairs, Office of Inspector           the nursing facility’s obligations to provide quality    often lack experience and knowledge of individual
                                           General, U.S. Department of Health and Human             health care. CMS has multiple resources available        residents. Furthermore, research correlates staff
ebenthall on PROD1PC60 with NOTICES




                                           Services), available at http://aging.senate.gov/         to assist nursing facilities in developing training      shortages and insufficient training with substandard
                                           events/hr178gd.pdf; see also 18 U.S.C. 287               programs. See CMS, ‘‘Sharing Innovations in              care. See OIG, OEI Report OEI–01–04–00070,
                                           (concerning false, fictitious, or fraudulent claims);    Quality, Resources for Long Term Care,’’ available       ‘‘Emerging Practices in Nursing Homes,’’ March
                                           18 U.S.C. 1001 (concerning statements or entries         on CMS’s Web site at http://siq.air.org/default.aspx;    2005, available on our Web site at http://
                                           generally); 18 U.S.C. 1035 (concerning false             CMS, ‘‘Skilled Nursing Facilities/Long-Term Care         oig.hhs.gov/oei/reports/oei-01-04-00070.pdf
                                           statements relating to health care matters); 18 U.S.C.   Open Door Forum,’’ available on CMS’s Web site at        (reviewing emerging practices that nursing facility
                                           1347 (concerning health care fraud); 18 U.S.C. 1516      http://www.cms.hhs.gov/OpenDoorForums/                   administrators believe reduce their staff turnover).



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00046   Fmt 4703    Sfmt 4703   E:\FR\FM\30SEN1.SGM     30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                        56837

                                           event reports (e.g., falls or adverse drug               accommodate the full interdisciplinary                   3. Medication Management
                                           events), as well as interviews with staff,               team, completing all clinical                               The Act requires nursing facilities to
                                           residents, and residents’ family or legal                assessments before the meeting is                        provide ‘‘pharmaceutical services
                                           guardians. Facilities should ensure that                 convened,41 opening lines of                             (including procedures that assure
                                           the methods used to assess staffing                      communication between direct care                        accurate acquiring, receiving,
                                           accurately measure actual ‘‘on-the-                      providers and interdisciplinary team                     dispensing, and administering of all
                                           floor’’ staff rather than theoretical ‘‘on-              members, involving the resident and the                  drugs and biologicals) to meet the needs
                                           paper’’ staff. For example, payroll                      residents’ family members or legal                       of each resident.’’ 47 Nursing facilities
                                           records that reflect actual hours and                    guardian,42 and documenting the length                   should be mindful of potential quality
                                           days worked may be more useful than                      and content of each meeting, may assist                  of care problems when adopting and
                                           prospectively generated staff schedules.                 facilities with meeting this requirement.                implementing policies and procedures
                                           2. Comprehensive Resident Care Plans                        Another risk area related to care plans               to provide these services. A failure to
                                                                                                    includes the involvement of attending                    manage pharmaceutical services
                                              Development of comprehensive
                                                                                                    physicians in resident care. Although                    properly can seriously jeopardize
                                           resident care plans is essential to
                                                                                                    specific regulations govern the role and                 resident safety and even result in
                                           reducing risk. Prior OIG reports revealed
                                                                                                    responsibilities of attending                            resident deaths.
                                           that a significant percentage of resident
                                                                                                                                                                Nursing facilities can promote
                                           care plans did not reflect residents’                    physicians,43 the nursing facility also
                                                                                                                                                             compliance by having in place proper
                                           actual care needs.38 Through its                         has a critical role—ensuring that a
                                                                                                                                                             medication management processes that
                                           enforcement and compliance                               physician supervises each resident’s
                                                                                                                                                             advance patient safety, minimize
                                           monitoring activities, OIG continues to                  care.44 Facilities must also include the                 adverse drug interactions, and ensure
                                           see insufficient care plans and their                    attending physician in the development                   that irregularities in a resident’s drug
                                           impact on residents as a risk area for                   of the resident’s care plan.45 Thus, an                  regimen are promptly discovered and
                                           nursing facilities.                                      effective compliance program would
                                              Medicare and Medicaid regulations                                                                              addressed. Nursing facilities should
                                                                                                    ensure physician involvement in these                    implement policies and procedures for
                                           require nursing facilities to develop a                  processes.46 For example, many
                                           comprehensive care plan for each                                                                                  maintaining accurate drug records and
                                                                                                    facilities schedule meetings to discuss a                tracking medications. Nursing facilities
                                           resident that addresses the medical,                     particular resident’s care plan. Facilities
                                           nursing, and mental and psychosocial                                                                              should provide appropriate training on
                                                                                                    may wish to develop policies and                         a regular basis to familiarize all staff
                                           needs for each resident and includes                     procedures to facilitate participation by
                                           reasonable objectives and timetables.39                                                                           involved in the pharmaceutical care of
                                                                                                    attending physicians, who often are not                  residents with proper medication
                                           Nursing facilities should ensure that
                                                                                                    physically present at the nursing facility               management. To this end, the facility’s
                                           care planning includes all disciplines
                                                                                                    on a daily basis. Facilities may improve                 consultant pharmacist is an important
                                           involved in the resident’s care.40
                                                                                                    communication with physicians by                         resource. Consultant pharmacists, who
                                           Perfunctory meetings or plans
                                           developed without the full clinical team                 providing advance notice of care                         specialize in the medication needs
                                           may create less than comprehensive                       planning meetings. Nursing facilities                    specific to older adults or
                                           resident-centered care plans.                            should evaluate, in conjunction with the                 institutionalized individuals, can help
                                           Inadequately prepared plans make it                      attending physician, how best to ensure                  facilities ‘‘identify, evaluate, and
                                           less likely that residents will receive                  physician participation—whether via                      address medication issues that may
                                           coordinated, multidisciplinary care.                     consultation and post-meeting                            affect resident care, medical care, and
                                           Insufficient plans jeopardize residents’                 debriefing, or telephone or personal                     quality of life.’’ 48
                                                                                                    attendance at meetings—with a focus on                      CMS regulations require that nursing
                                           well-being and risk the provision of
                                                                                                    serving the best interests of the resident               facilities employ or obtain the services
                                           inadequate care, medically unnecessary
                                                                                                    and complying with applicable                            of a licensed pharmacist to ‘‘provide[]
                                           care services, or medically
                                                                                                    regulations.                                             consultation on all aspects of the
                                           inappropriate services.
                                              To reduce these risks, nursing                                                                                 provision of pharmacy services in the
                                           facilities should design measures to                        41 Nursing facilities with residents with mental
                                                                                                                                                             facility * * *.’’ 49 The pharmacist must
                                           ensure an interdisciplinary and                          illness or mental retardation should ensure that         review the drug regimen of each
                                           comprehensive approach to developing                     they have the Preadmission Screening and Resident        resident at least once a month and
                                                                                                    Review (PASRR) screens for their residents. See 42
                                           care plans. Basic steps, such as                         CFR 483.20(m). In addition, for residents who do            47 Sections 1819(b)(4)(A)(iii) and
                                           appropriately scheduling meetings to                     not require specialized services, facilities should      1919(b)(4)(A)(iii) of the Act (42 U.S.C. 1395i–
                                                                                                    ensure that they are providing the ‘‘services of         3(b)(4)(A)(iii) and 1396r(b)(4)(A)(iii)). In addition,
                                              38 See, e.g., OIG, OEI Report OEI–02–99–00040,        lesser intensity’’ as set forth in CMS regulations.      under 42 CFR 483.60, SNFs and NFs must ‘‘provide
                                           ‘‘Nursing Home Resident Assessment Quality of            See 42 CFR 483.120(c). Care plan meetings can            routine and emergency drugs and biologicals to
                                           Care,’’ January 2001, available on our Web site at       provide nursing facilities with an ideal opportunity     [their] residents, or obtain them under an agreement
                                           http://oig.hhs.gov/oei/reports/oei-02–99–00040.pdf.      to ensure that these obligations are met.                described in [section] 483.75(h) * * *’’ Nursing
                                                                                                       42 Where possible, residents and their family
                                              39 42 CFR 483.20(k). An effective compliance                                                                   facilities must meet this obligation even if a
                                           program would also monitor discharge and transfer        members or legal guardians should be included in         pharmacy charges a Medicare Part D copayment to
                                           of residents for compliance with Federal and State       the development of care and treatment plans.             a dual eligible beneficiary who cannot afford to pay
                                           regulations. See, e.g., 42 CFR 483.12 (detailing         Unless the resident has been declared incompetent        the copayment. See CMS, ‘‘Part D Questions re: Co-
                                           transfer and discharge obligations). Because many        or otherwise found to be incapacitated under State       pays for Institutionalized Individuals April 19,
                                           of the legitimate reasons for transfer or discharge      law, the resident has a right to participate in his or   2006,’’ Question 2. and Response, in ‘‘Medicare Part
                                           relate to the medical or psychosocial needs of the       her care planning and treatment. 42 CFR                  D Claims Filing Window Extended to 180 Days,’’
                                           resident, the care plan team may be in a position        483.10(d)(3).                                            Medicare Rx Update: May 9, 2006, available on
ebenthall on PROD1PC60 with NOTICES




                                                                                                       43 See, e.g., 42 CFR 483.40(b), (c), (e).
                                           to provide recommendations on discharge or                                                                        CMS’s Web site at http://www.cms.hhs.gov/
                                                                                                       44 42 CFR 483.40(a).                                  Pharmacy/downloads/update050906.pdf.
                                           transfer of a resident.
                                              40 42 CFR 483.20(k)(2)(ii) (requiring an                 45 42 CFR 483.20(k)(2)(ii).                              48 CMS, ‘‘State Operations Manual,’’ Pub. No.

                                           interdisciplinary team, including the physician, a          46 See 42 CFR 483.40(a) (obligating a facility to     100–07, Appendix PP, section 483.60, available on
                                           registered nurse with responsibility for the resident,   ensure a physician supervises resident care); 42         CMS’s Web site at http://cms.hhs.gov/manuals/
                                           and other disciplines involved in the resident’s         CFR 483.40(b) (requiring physicians to review the        Downloads/som107ap_pp_guidelines_ltcf.pdf.
                                           care).                                                   resident’s ‘‘total program of care’’).                      49 42 CFR 483.60(b)(1).




                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00047    Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM     30SEN1
                                           56838                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           report any irregularities discovered in a               for the quality of drug therapy provided                from these risks.62 Of particular concern
                                           resident’s drug regimen to the attending                in the facility. Federal law prohibits                  is harm caused by staff and fellow
                                           physician and the director of nursing.50                facilities from using any medication as                 residents.63
                                           These pharmacists are also required to:                 a means of chemical restraint for
                                                                                                                                                           (a) Promoting Resident Safety
                                           (1) ‘‘[e]stablish[] a system of records of              ‘‘purposes of discipline or convenience,
                                           receipt and disposition of all controlled               and not required to treat the resident’s                   Federal regulations mandate that
                                           drugs * * * ;’’ and (2) ‘‘[d]etermine[]                 medical symptoms.’’ 55 In addition,                     nursing facilities develop and
                                           that drug records are in order and that                 resident drug regimens must be free                     implement policies and procedures to
                                           an account of all controlled drugs is                   from unnecessary drugs.56 For residents                 prohibit mistreatment, neglect, and
                                           maintained and periodically                             who specifically require antipsychotic                  abuse of residents.64 Facilities must also
                                           reconciled.’’ 51 As indicated in CMS                    medications, CMS regulations also                       thoroughly investigate and report
                                           guidance, ‘‘[t]he facility may provide for              require, unless contraindicated, that                   incidents to law enforcement, as
                                           this service through any of several                     residents receive gradual dose                          required by State laws.65 Although
                                           methods (in accordance with [S]tate                     reductions and behavioral interventions                 experts continue to debate the most
                                           requirements) such as direct                            aimed at reducing medication use.57                     effective systems for enhancing the
                                           employment or contractual agreement                        In light of these requirements, nursing              reporting, investigation, and
                                           with a pharmacist.’’ 52 Some of the                     facilities should ensure that there is an               prosecution of nursing facility resident
                                           consultant pharmacists obtained by                      adequate indication for the use of the                  abuse, an effective compliance program
                                           nursing facilities are employed by long-                medication and should carefully                         recognizes the value of a demonstrated
                                           term care pharmacies that furnish drugs                 monitor, document, and review the use                   internal commitment to eliminating
                                           and supplies to nursing facilities.53                   of each resident’s psychotropic drugs.                  resident abuse.66 An effective
                                           Whatever the arrangement or method                      Working together, the attending                         compliance program will include
                                           used, the nursing facility and consultant               physicians, medical director, consultant                policies, procedures, and practices to
                                           pharmacist should work together to                      pharmacist, and other resident care                     prevent, investigate, and respond to
                                           achieve proper medication management                    providers play a critical role in                       instances of potential resident abuse,
                                           in the facility.                                        achieving these objectives. Compliance                  neglect, or mistreatment, including
                                           4. Appropriate Use of Psychotropic                      measures could include educating care                   injuries resulting from staff-on-resident
                                           Medications                                             providers regarding appropriate                         abuse and neglect, resident-on-resident
                                                                                                   monitoring and documentation                            abuse, and abuse from unknown causes.
                                              Based on our enforcement and                                                                                    Confidential reporting is a key
                                           compliance monitoring activities, OIG                   practices and auditing drug regimen
                                                                                                   reviews 58 and resident care plans to                   component of an effective resident
                                           has identified inappropriate use of                                                                             safety program. Such a mechanism
                                           psychotropic medications for residents                  determine if they incorporate an
                                                                                                   assessment of the resident’s ‘‘medical,                 enables staff, contractors, residents,
                                           as a risk area in at least two ways—the                                                                         family members, visitors, and others to
                                           prohibition against inappropriate use of                nursing, and mental and psychosocial
                                                                                                   needs,’’ 59 including the need for                      report threats, abuse, mistreatment, and
                                           chemical restraints and the requirement                                                                         other safety concerns confidentially to
                                           to avoid unnecessary drug usage.                        psychotropic medications for a specific
                                                                                                   medical condition.60 The attending                      senior staff empowered to take
                                              Facilities have affirmative obligations
                                                                                                   physicians, the medical director, the                   immediate action. Posters, brochures,
                                           to ensure appropriate use of
                                                                                                   consultant pharmacist, and other care                   and online resources that encourage
                                           psychotropic medications. Specifically,
                                                                                                   providers should collaborate to analyze                 readers to report suspected safety
                                           nursing facilities must ensure that
                                                                                                   the outcomes of care using the results of               problems to senior facility staff are
                                           psychopharmacological practices
                                           comport with Federal regulations and                    the drug regimen reviews, progress                      commonly used. Another commonly
                                           generally accepted professional                         notes, and monitoring of the resident’s
                                                                                                                                                             62 See  id.
                                           standards.54 The facility is responsible                behaviors.                                                63 For  an overview of research relating to resident
                                                                                                   5. Resident Safety                                      abuse and neglect, see Catherine Hawes, Ph.D.,
                                             50 42  CFR 483.60(c).                                                                                         ‘‘Elder Abuse in Residential Long-Term Care
                                             51 42  CFR 483.60(b)(2), (3).                            Nursing facility residents have a legal              Settings: What is Known and What Information is
                                              52 CMS, ‘‘State Operations Manual,’’ Pub. No.
                                                                                                   right to be free from abuse and neglect.61              Needed?,’’ in Elder Mistreatment: Abuse, Neglect,
                                           100–07, Appendix PP, section 483.60, available on                                                               and Exploitation in an Aging America (National
                                           CMS’s Web site at http://cms.hhs.gov/manuals/
                                                                                                   Facilities should take steps to ensure                  Research Council, 2003); U.S. Government
                                           Downloads/som107ap_pp_guidelines_ltcf.pdf. In           that they are protecting their residents                Accountability Office (GAO), GAO Report GAO–
                                           cases where the nursing facilities employ or                                                                    02–312, ‘‘Nursing Homes: More Can Be Done to
                                           contract directly with pharmacists to provide                                                                   Protect Residents from Abuse,’’ March 2002,
                                                                                                   CFR 483.75(b) (requiring facilities to provide
                                           consultant pharmacist services, the nursing facility                                                            available on GAO’s Web site at http://www.gao.gov/
                                                                                                   services in compliance ‘‘with all applicable Federal,
                                           should ensure that the pharmacist’s compensation                                                                new.items/d02312.pdf; Administration on Aging,
                                                                                                   State, and local laws, regulations, and codes, and
                                           is not structured in any manner that reflects the                                                               Elder Abuse Web site, available at http://
                                                                                                   with accepted professional standards and principles
                                           volume or value of drugs prescribed for, or                                                                     www.aoa.gov/eldfam/elder_rights/elder_abuse/
                                                                                                   * * *’’).
                                           administered to, patients.                                 55 42 CFR 483.13(a).
                                                                                                                                                           elder_abuse.aspx.
                                              53 Nursing facilities that receive consultant                                                                   64 42 CFR 483.13(c); see also 42 CFR 483.13(a).
                                                                                                      56 42 CFR 483.25(l)(1). An unnecessary drug
                                           pharmacist services under contract with a long-term                                                                65 Id.
                                                                                                   includes any medication, including psychotropic
                                           care pharmacy should be mindful that the provision                                                                 66 Under State mandatory reporting statutes,
                                                                                                   medications, that is excessive in dose, used
                                           or receipt of free services or services at non-fair-                                                            persons such as health care professionals, human
                                                                                                   excessively in duration, used without adequate
                                           market value rates between actual or potential                                                                  service professionals, clergy, law enforcement, and
                                                                                                   monitoring, used without adequate indications for
                                           referral sources present a heightened risk of fraud                                                             financial professionals may have a legal obligation
                                                                                                   its use, used in the presence of adverse
                                           and abuse. For further discussion of the anti-                                                                  to make a formal report to law enforcement officials
                                                                                                   consequences, or any combination thereof. Id.
                                           kickback statute and service arrangements, see             57 42 CFR 483.25(l)(2).                              or a central reporting agency if they suspect that a
ebenthall on PROD1PC60 with NOTICES




                                           sections III.C.1. and III.C.2.                                                                                  nursing facility resident is being abused or
                                                                                                      58 42 CFR 483.60(c).
                                              54 See, e.g., 42 CFR 483.20(k)(3) (requiring                                                                 neglected. To ensure compliance with these
                                                                                                      59 42 CFR 483.20(k).
                                           services that are ‘‘provided or arranged by the                                                                 statutes, nursing facilities should consider training
                                                                                                      60 42 CFR 483.25(l)(2).
                                           facility’’ to comport with professional standards of                                                            relating to compliance with their relevant States’
                                           quality); 42 CFR 483.25 (requiring facilities to           61 Sections 1819 and 1919 of the Act (42 U.S.C.      laws. Nursing facilities can also assist by providing
                                           provide necessary care and services, including the      1351i–3 and 1396r); 42 CFR 483.10; see also 42 CFR      ready access to law enforcement contact
                                           resident’s right to be free of unnecessary drugs); 42   483.15 and 483.25.                                      information.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00048   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM       30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                     56839

                                           used compliance component for                            facilities in their mission to provide a                 mechanisms in place to identify which
                                           reporting violations is a dedicated                      safe environment for residents.                          State registries they must examine.
                                           hotline that allows staff, contractors,
                                                                                                    (c) Staff Screening                                      B. Submission of Accurate Claims
                                           residents, family members, visitors, and
                                           others with concerns to report                              Nursing facilities cannot employ                         Nursing facilities must submit
                                           suspicions. Regardless of the reporting                  individuals ‘‘[f]ound guilty of abusing,                 accurate claims to Federal health care
                                           vehicle, ideally coverage for reporting                  neglecting, or mistreating residents,’’ or               programs. Examples of false or
                                           and addressing resident safety issues                    individuals with ‘‘a finding entered into                fraudulent claims include claims for
                                           would be on a constant basis (i.e., 24                   [a] State nurse aide registry concerning                 items not provided or not provided as
                                           hours per day/7 days per week).                          abuse, neglect, mistreatment of residents                claimed, claims for services that are not
                                           Moreover, nursing facilities should                      or misappropriation of their                             medically necessary, and claims when
                                           make clear to caregivers, facility staff,                property.’’ 68 Effective recruitment,                    there has been a failure of care.
                                           and residents that the facility is                       screening, and training of care providers                Submitting a false claim, or causing a
                                           committed to protecting those who                        are essential to ensure a viable                         false claim to be submitted, to a Federal
                                           make reports from retaliation.                           workforce. Although no pre-                              health care program may subject the
                                              Facilities may also want to consider a                employment background screening can                      individual, the entity, or both to
                                           program to engage everyone who comes                     provide nursing facilities with absolute                 criminal prosecution, civil liability
                                           in contact with nursing facility                         assurance that a job applicant will not                  (including treble damages and penalties)
                                           residents—whether health care                            commit a crime in the future, nursing                    under the False Claims Act, and
                                           professionals, administrative and                        facilities must make reasonable efforts                  exclusion from participation in Federal
                                           custodial staff, family and friends,                     to ensure that they have a workforce                     health care programs.
                                           visiting therapists, or community                        that will maintain the safety of their                      Common and longstanding risks
                                           members—in the mission of protecting                     residents.                                               associated with claim preparation and
                                           residents. Such a program could include                     Commonly, nursing facilities screen                   submission include duplicate billing,
                                           specialized training for everyone who                    potential employees against criminal                     insufficient documentation, and false or
                                           interacts on a regular basis with                        record databases. OIG is aware that                      fraudulent cost reports. While nursing
                                           residents on recognizing warning signs                   there is a ‘‘great diversity in the way                  facilities should continue to be vigilant
                                           of neglect or abuse and on effective                     States systematically identify, report,                  with respect to these important risk
                                           methods to communicate with                              and investigate suspected abuse.’’ 69                    areas, we believe these risk areas are
                                           potentially fearful residents in a way                   Nonetheless, a comprehensive                             relatively well understood in the
                                           likely to induce candid self-reporting of                examination of a prospective                             industry, and therefore they are not
                                           neglect or abuse.67                                      employee’s criminal record in all States                 specifically addressed in this section.
                                                                                                    in which the person has worked or                           As reimbursement systems have
                                           (b) Resident Interactions                                resided may provide a greater degree of                  evolved, OIG has uncovered other types
                                              The nursing facility industry, resident               protection for residents.70                              of fraudulent transactions related to the
                                           advocacy groups, and law enforcement                        Verification of education, licensing,                 provision of health care services to
                                           are becoming increasingly concerned                      certifications, and training for care                    residents of nursing facilities
                                           about resident abuse committed by                        providers can also assist nursing                        reimbursed by Medicare and Medicaid.
                                           fellow residents. Abuse can occur as a                   facilities in their efforts to ensure they               In this section, we will discuss some of
                                           result of the failure to properly screen                 provide patients with qualified and                      these risk areas. This list is not
                                           and assess, or the failure of staff to                   skilled caregivers. Many States have                     exhaustive. It is intended to assist
                                           monitor, residents at risk for aggressive                requirements that nursing facilities                     facilities in evaluating their own risk
                                           behavior. Such failures can jeopardize                   conduct these checks for all professional                areas. In addition, section III.A. above
                                           both the resident with aggressive                        care providers, such as therapists,                      outlines other regulatory requirements
                                           behaviors and the victimized resident.                   medical directors, and nurses. Federal                   that, if not met, may subject nursing
                                              Heightened awareness and monitoring                   regulations require a nursing facility to                facilities to potential liability for
                                           for abuse are crucial to eradicating                     check its State nurse aide registry to                   submission of false or fraudulent claims.
                                           resident-on-resident abuse. Nursing                      ensure that potential hires for nurse aide
                                           facilities can advance their mission to                  positions have met competency                            1. Proper Reporting of Resident Case-
                                           provide a safe environment for residents                 evaluation requirements or are                           Mix by SNFs
                                           through targeted education relating to                   otherwise exempted from registration                        We are aware of instances in which
                                           resident-on-resident abuse (particularly                 requirements.71 In addition, the facility                SNFs have improperly upcoded resident
                                           for staff with responsibilities for                      must also check every State nurse aide                   RUG assignments.73 Classifying a
                                           admission evaluations). Thorough                         registry it ‘‘believes will include                      resident into the correct RUG, through
                                           resident assessments, comprehensive                      information’’ on the individual.72 To                    resident assessments, requires accurate
                                           care plans, periodic resident                            ensure compliance with this                              and comprehensive reporting about the
                                           assessments, and proper staffing                         requirement, facilities should have                      resident’s conditions and needs.
                                           assignments would also assist nursing                                                                             Inaccurate reporting of data could result
                                                                                                      68 42  CFR 483.13(c)(1)(ii).                           in the misrepresentation of the
                                                                                                      69 OIG,  Audit Report A–12–12–97–0003,
                                             67 Facilitiescould explore partnering with the
                                                                                                    ‘‘Safeguarding Long-Term Care Residents,’’
                                                                                                                                                             resident’s status, the submission of false
                                           ombudsmen and other consumer advocates in                                                                         claims, and potential enforcement
                                           sponsoring or participating in special training          September 1998, available on our Web site at
                                           programs designed to prevent abuse. See ‘‘Elder          http://oig.hhs.gov/oas/reports/aoa/d9700003.pdf.         actions. Therefore, we have identified
                                                                                                       70 Because there is no one central repository for
                                           Justice: Protecting Seniors from Abuse and Neglect:
ebenthall on PROD1PC60 with NOTICES




                                           Hearing Before the Senate Committee on Finance,’’        criminal records, there is a significant limitation to     73 A 2006 OIG report found that 22 percent of

                                           107th Congress (2002) (testimony of Catherine            searching the criminal record databases only for the     claims were upcoded, representing $542 million in
                                           Hawes, Ph.D., titled ‘‘Elder Abuse in Residential        State in which the facility is located. A better         potential overpayments for FY 2002. OIG, OEI
                                           Long-Term Care Facilities: What is Known About           practice may be to search databases for all States in    Report OEI–02–02–00830, ‘‘A Review of Nursing
                                           the Prevalence, Causes, and Prevention’’), available     which the applicant resided or was employed.             Facility Resource Utilization Groups,’’ February
                                                                                                       71 42 CFR 483.75(e)(5).
                                           at http://finance.senate.gov/hearings/testimony/                                                                  2006, available on our Web site at http://
                                           061802chtest.pdf.                                           72 42 CFR 483.75(e)(6).                               oig.hhs.gov/oei/reports/oei-02–02–00830.pdf.



                                      VerDate Aug<31>2005    15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00049   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM     30SEN1
                                           56840                       Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           the assessment, reporting, and                           services may expose residents to risk of                 prior to engaging their services against
                                           evaluation of resident case-mix data as                  physical injury or decline in condition,                 OIG’s List of Excluded Individuals/
                                           a significant risk area for SNFs.74                      resulting in potential failure of care                   Entities (LEIE) on OIG’s Web site,85 as
                                              Because of the critical role resident                 problems.                                                well as the U.S. General Services
                                           case-mix data play in resident care                        OIG strongly advises nursing facilities                Administration’s Excluded Parties List
                                           planning and reimbursement, training                     to develop policies, procedures, and                     System.86 In addition, facilities should
                                           on the collection and use of case-mix                    measures to ensure that residents are                    consider implementing a process that
                                           data is important. An effective                          receiving medically appropriate therapy                  requires job applicants to disclose,
                                           compliance program will include                          services.80 Some practices that may be                   during the pre-employment process (or,
                                           training of responsible staff to ensure                  beneficial include: Requirements that                    for vendors, during the request for
                                           that persons collecting the data and                     therapy contractors provide complete                     proposal process), whether they are
                                           those charged with analyzing and                         and contemporaneous documentation of                     excluded. Facilities should strongly
                                           responding to the data are                               each resident’s services; regular and                    consider periodically screening their
                                           knowledgeable about the purpose and                      periodic reconciliation of the                           current owners, officers, directors,
                                           utility of the data. Facilities must also                physician’s orders and the services                      employees, contractors, and agents to
                                           ensure that data reported to the Federal                 actually provided; interviews with the                   ensure that they have not been excluded
                                           Government are accurate. Both internal                   residents and family members to be sure                  since the initial screening.
                                           and external periodic validation of data                 services are delivered; and assessments                     Facilities should also take steps to
                                           may prove useful. Moreover, as                           of the continued medical necessity for                   ensure that they have policies and
                                           authorities continue to scrutinize                       services during resident care planning                   procedures that require removal of any
                                           quality-reporting data,75 nursing                        meetings at which the attending                          owner, officer, director, employee,
                                           facilities are well-advised to review                    physician attends.                                       contractor, or agent from responsibility
                                           such data regularly to ensure their                                                                               for, or involvement with, a facility’s
                                                                                                    3. Screening for Excluded Individuals                    business operations related to the
                                           accuracy and to identify and address
                                                                                                    and Entities                                             Federal health care programs if the
                                           potential quality of care issues.76
                                                                                                       No Federal health care program                        facility has actual notice that such a
                                           2. Therapy Services                                      payment may be made for items or                         person is excluded. Facilities may also
                                              The provision of physical,                            services furnished by an excluded                        wish to consider appropriate training for
                                           occupational, and speech therapy                         individual or entity.81 This payment                     human resources personnel on the
                                           services continues to be a risk area for                 ban applies to all methods of Federal                    effects of exclusion. Exclusion
                                           nursing facilities. Potential problems                   health care program reimbursement.                       continues to apply to an individual even
                                           include: (i) Improper utilization of                     Civil monetary penalties (CMP) may be                    if he or she changes from one health
                                           therapy services to inflate the severity of              imposed against any person who                           care profession to another while
                                           RUG classifications and obtain                           arranges or contracts (by employment or                  excluded. That exclusion remains in
                                           additional reimbursement; (ii)                           otherwise) with an individual or entity                  effect until OIG has reinstated the
                                           overutilization of therapy services billed               for the provision of items or services for               individual, which is not automatic.87 A
                                           on a fee-for-service basis to Part B under               which payment may be made under a                        useful tool for the training is OIG’s
                                           consolidated billing; and (iii) stinting on              Federal health care program,82 if the                    Special Advisory Bulletin, titled ‘‘The
                                           therapy services provided to patients                    person knows or should know that the                     Effect of Exclusion From Participation
                                           covered by the Part A PPS payment.77                     employee or contractor is excluded from                  in Federal Health Care Programs.’’ 88
                                           These practices may result in the                        participation in a Federal health care                   4. Restorative and Personal Care
                                           submission of false claims.78                            program.83                                               Services
                                              In addition, unnecessary therapy                         To prevent hiring or contracting with
                                           services may place frail but otherwise                   an excluded person, OIG strongly                            Facilities must ensure that residents
                                           functioning residents at risk for physical               advises nursing facilities to screen all                 receive appropriate restorative and
                                           injury, such as muscle fatigue and                       prospective owners, officers, directors,
                                                                                                                                                             the nursing facility. Although a nursing facility
                                           broken bones, and may obscure a                          employees, contractors,84 and agents                     would not avoid liability for violating Medicare’s
                                           resident’s true condition, leading to                                                                             prohibition on payment for services rendered by the
                                                                                                       80 See OIG, OEI Report OEI–09–99–00563,
                                           inadequate care plans and inaccurate                                                                              excluded staff person merely by including such a
                                                                                                    ‘‘Physical, Occupational, and Speech Therapy for         provision, requiring the vendors to screen staff may
                                           RUG classifications.79 Too few therapy                   Medicare Nursing Home Patients: Medical                  help a nursing facility avoid engaging the services
                                                                                                    Necessity and Quality of Care Based on Treatment         of excluded persons, and could be taken into
                                             74 To the extent a State Medicaid program relies
                                                                                                    Diagnosis,’’ August 2001, available on our Web site      account in the event of a Government enforcement
                                           upon RUG classification, or a variation of this          at http://oig.hhs.gov/oei/reports/oei-09–99–             action.
                                           system, to calculate its reimbursement rate, nursing     00563.pdf.                                                  85 Available on our Web site at http://oig.hhs.gov/
                                           facilities, as defined in section 1919 of the Act (42       81 42 CFR 1001.1901. Exclusions imposed prior to      fraud/exclusions/listofexcluded.html.
                                           U.S.C. 1396r), should be aware of this risk area as      August 5, 1997, cover Medicare and all State health         86 Available at http://www.epls.gov/.
                                           well.                                                    care programs (including Medicaid), but not other           87 Reinstatement of excluded entities and
                                             75 See, e.g., CMS, ‘‘2007 Action Plan for (Further
                                                                                                    Federal health care programs. See The Balanced           individuals is not automatic. Those wishing to
                                           Improvement of) Nursing Home Quality,’’                  Budget Act of 1997 (Pub. L. 105–33) (amending            again participate in the Medicare, Medicaid, and all
                                           September 2006, available on CMS’s Web site at           section 1128 of the Act (42 U.S.C. 1320a–7) to           Federal health care programs must apply for
                                           http://www.cms.hhs.gov/SurveyCertificationGen            expand the scope of exclusions imposed by OIG).          reinstatement and receive authorized notice from
                                           Info/downloads/2007ActionPlan.pdf.                          82 Such items or services could include
                                                                                                                                                             OIG that reinstatement has been granted. Obtaining
                                             76 In addition to assisting facilities with ensuring
                                                                                                    administrative, clerical, and other activities that do   a provider number from a Medicare contractor, a
                                           that claims data are accurate, monitoring MDS data       not directly involve patient care. See section           State agency, or a Federal health care program does
                                           may assist facilities in recognizing common              1128A(a)(6) of the Act (42 U.S.C. 1320a–7a(a)(6)).       not reinstate eligibility to participate in those
ebenthall on PROD1PC60 with NOTICES




                                           warning signs of a systemic care problem (e.g.,             83 Id.                                                programs. There are no provisions for retroactive
                                           increase in or excessive pressure ulcers or falls).         84 A nursing facility that relies upon third-party    reinstatement. See 42 CFR 1001.1901.
                                             77 There may be additional risk areas for outside
                                                                                                    agencies to provide temporary or contract staffing          88 OIG, ‘‘The Effect of Exclusion From
                                           therapy suppliers.                                       should consider including provisions in its              Participation in Federal Health Care Programs,’’
                                             78 Additional risks related to the anti-kickback
                                                                                                    contracts that require the vendors to screen staff       September 1999, available on our Web site at
                                           statute are discussed below in section III.C.            against OIG’s List of Excluded Individuals/Entities      http://oig.hhs.gov/fraud/docs/alertsandbulletins/
                                             79 See 42 CFR 483.20(b) and (k).                       before determining that they are eligible to work at     effected.htm.



                                      VerDate Aug<31>2005    15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00050   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM     30SEN1
                                                                       Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                          56841

                                           personal care services to allow residents                 made purposefully to induce or reward                   Although liability under the anti-
                                           to attain and maintain their highest                      the referral or generation of Federal                kickback statute ultimately turns on a
                                           practicable level of functioning.89 These                 health care program business. The anti-              party’s intent, it is possible to identify
                                           services include, among others, care to                   kickback statute prohibits offering or               arrangements or practices that may
                                           avoid pressure ulcers, active and                         paying anything of value for patient                 present a significant potential for abuse.
                                           passive range of motion, ambulation,                      referrals. It also prohibits offering or             For purposes of identifying potential
                                           fall prevention, incontinence                             paying of anything of value in return for            kickback risks under the anti-kickback
                                           management, bathing, dressing, and                        purchasing, leasing, ordering, or                    statute, the following inquiries are
                                           grooming activities.90                                    arranging for or recommending the                    useful:
                                              OIG is aware of facilities that have                   purchase, lease, or order of any item or                • Does the nursing facility (or its
                                           billed Federal health care programs for                   service reimbursable in whole or in part             affiliates or representatives) provide
                                           restorative and personal care services                    by a Federal health care program. The                anything of value to persons or entities
                                           despite the fact that the services were                   statute also covers the solicitation or              in a position to influence or generate
                                           not provided or were so wholly                            acceptance of remuneration for referrals             Federal health care program business for
                                           deficient that they amounted to no care                   for, or the generation of, business                  the nursing facility (or its affiliates)
                                           at all. Federal health care programs do                   payable by a Federal health care                     directly or indirectly?
                                           not reimburse for restorative and                         program. Liability under the anti-                      • Does the nursing facility (or its
                                           personal care services under these                        kickback statute is determined                       affiliates or representatives) receive
                                           circumstances. Nursing facilities that                    separately for each party involved. In               anything of value from persons or
                                           fail to provide necessary restorative and                 addition to criminal penalties, violators            entities for which the nursing facility
                                           personal care services risk billing for                   may be subject to CMPs and exclusion                 generates Federal health care program
                                           services not rendered as claimed, and                     from the Federal health care programs.               business, directly or indirectly?
                                           therefore may be subject to liability                     Nursing facilities should also be aware                 • Could one purpose of an
                                           under fraud and abuse statutes and                        that compliance with the anti-kickback               arrangement be to induce or reward the
                                           regulations.                                                                                                   generation of business payable in whole
                                                                                                     statute is a condition of payment under
                                              To avoid this risk, nursing facilities                                                                      or in part by a Federal health care
                                                                                                     Medicare and other Federal health care
                                           are strongly encouraged to have                                                                                program? Importantly, under the anti-
                                                                                                     programs.93 As such, liability may arise
                                           comprehensive procedures in place to                                                                           kickback statute, neither a legitimate
                                                                                                     under the False Claims Act if the anti-
                                           ensure that services are of an                                                                                 business purpose for an arrangement
                                                                                                     kickback statute violation results in the
                                           appropriate quality and level and that                                                                         nor a fair-market value payment will
                                                                                                     submission of a claim for payment
                                           services are in fact delivered to nursing                                                                      legitimize a payment if there is also an
                                                                                                     under a Federal health care program.
                                           facility residents. To accomplish this,                                                                        illegal purpose (i.e., inducing Federal
                                                                                                       Nursing facilities make and receive                health care program business).
                                           facilities may wish to engage in resident                 referrals of Federal health care program
                                           and staff interviews; medical record                                                                           Any arrangement for which the answer
                                                                                                     business. Nursing facilities need to
                                           reviews; 91 consultations with attending                                                                       to any of these inquiries is affirmative
                                                                                                     ensure that these referrals comply with
                                           physicians, the medical director, and                                                                          implicates the anti-kickback statute and
                                                                                                     the anti-kickback statute. Nursing
                                           consultant pharmacists; and personal                                                                           requires careful scrutiny.
                                                                                                     facilities may obtain referrals of Federal              Several potentially aggravating
                                           observations of care delivery. Moreover,                  health care program beneficiaries from a
                                           complete and contemporaneous                                                                                   considerations are useful in identifying
                                                                                                     variety of health care sources, including,           arrangements at greatest risk of
                                           documentation of services is critical to                  for example, physicians and other
                                           ensuring that services are rendered.                                                                           prosecution. In particular, in assessing
                                                                                                     health care professionals, hospitals and             risk, nursing facilities should ask the
                                           C. The Federal Anti-Kickback Statute                      hospital discharge planners, hospices,               following questions, among others,
                                                                                                     home health agencies, and other nursing              about any potentially problematic
                                             The Federal anti-kickback statute,                      facilities. Physicians, pharmacists, and
                                           section 1128B(b) of the Act,92 places                                                                          arrangements or practices they identify:
                                                                                                     other health care professionals may                     • Does the arrangement or practice
                                           constraints on business arrangements                      generate referrals for items and services
                                           related directly or indirectly to items or                                                                     have a potential to interfere with, or
                                                                                                     reimbursed to the nursing facilities by              skew, clinical decision-making?
                                           services reimbursable by Federal health                   Federal health care programs. In                        • Does the arrangement or practice
                                           care programs, including, but not                         addition, when furnishing services to                have a potential to increase costs to
                                           limited to, Medicare and Medicaid. The                    residents, nursing facilities often direct           Federal health care programs or
                                           anti-kickback statute prohibits the                       or influence referrals to others for items           beneficiaries?
                                           health care industry from engaging in                     and services reimbursable by Federal                    • Does the arrangement or practice
                                           some practices that are common in other                   health care programs. For example,                   have a potential to increase the risk of
                                           business sectors, such as offering or                     nursing facilities may refer patients to,            overutilization or inappropriate
                                           receiving gifts to reward past or                         or order items or services from,                     utilization?
                                           potential new referrals.                                  hospices; DME companies; laboratories;                  • Does the arrangement or practice
                                             The anti-kickback statute is a criminal                 diagnostic testing facilities; long-term             raise patient safety or quality of care
                                           prohibition against remuneration (in                      care pharmacies; hospitals; physicians;              concerns?
                                           any form, whether direct or indirect)                     other nursing facilities; and physical,              Nursing facilities should be mindful of
                                             89 42 CFR 483.25 (requiring facilities to provide
                                                                                                     occupational, and speech therapists. All             these concerns when structuring and
                                           care and services necessary to ensure a resident’s
                                                                                                     of these circumstances call for vigilance            reviewing arrangements. An affirmative
                                           ability to participate in activities of daily living do   under the anti-kickback statute.                     answer to one or more of these
ebenthall on PROD1PC60 with NOTICES




                                           not diminish unless a clinical condition makes the                                                             questions is a red flag signaling an
                                           decline unavoidable).
                                             90 Id.
                                                                                                       93 See, e.g., CMS, Form 855A, ‘‘Medicare Federal
                                                                                                                                                          arrangement or practice that may be
                                                                                                     Health Care Provider/Supplier Application,’’         particularly susceptible to fraud and
                                             91 Indicators to watch for include, but are not
                                                                                                     Certification Statement at section 15, paragraph
                                           limited to, bedsores, falls, unexplained weight loss,     A.3., available on CMS’s Web site at http://         abuse.
                                           and dehydration.                                          www.cms.hhs.gov/CMSForms/downloads/                     Nursing facilities that have identified
                                             92 42 U.S.C. 1320a–7b(b).                               CMS855a.pdf.                                         potentially problematic arrangements or


                                      VerDate Aug<31>2005    15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00051   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                           56842                     Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           practices can take a number of steps to                 or in part because of their past or                   facilities identify, address, and avoid
                                           reduce or eliminate the risk of an anti-                anticipated referrals?                                problematic arrangements.
                                           kickback violation. Most importantly,                      • Manner in which the remuneration                    Available OIG guidance on the anti-
                                           the anti-kickback statute and the                       is determined. Does the remuneration                  kickback statute includes OIG Special
                                           corresponding regulations establish a                   take into account, directly or indirectly,            Fraud Alerts and advisory bulletins.
                                           number of ‘‘safe harbors’’ for common                   the volume or value of business                       OIG also issues advisory opinions to
                                           business arrangements. The safe harbors                 generated? Is the remuneration                        specific parties about their particular
                                           protect arrangements from liability                     conditioned in whole or in part on                    business arrangements.95 A nursing
                                           under the statute. The following safe                   referrals or other business generated                 facility concerned about an existing or
                                           harbors are of most relevance to nursing                between the parties? Is the arrangement               proposed arrangement may request a
                                           facilities:                                             itself conditioned, directly or indirectly,           binding OIG advisory opinion regarding
                                             • Investment interests safe harbor (42                on the volume or value of Federal health              whether the arrangement violates the
                                           CFR 1001.952(a)),                                       care program business? Is there any                   Federal anti-kickback statute or other
                                             • Space rental safe harbor (42 CFR                    service provided other than referrals?                OIG fraud and abuse authorities.
                                           1001.952(b)),                                              • Value of the remuneration. Is the                Procedures for requesting an advisory
                                             • Equipment rental safe harbor (42                    remuneration fair-market value in an                  opinion are set out at 42 CFR part 1008.
                                           CFR 1001.952(c)),                                       arm’s-length transaction for legitimate,              The safe harbor regulations (and
                                             • Personal services and management                    reasonable, and necessary services that               accompanying Federal Register
                                           contracts safe harbor (42 CFR                           are actually rendered? Is the nursing                 preambles), fraud alerts and bulletins,
                                           1001.952(d)),                                           facility paying an inflated rate to a                 advisory opinions (and instructions for
                                             • Discount safe harbor (42 CFR                        potential referral source? Is the nursing             obtaining them, including a list of
                                           1001.952(h)),                                           facility receiving free or below-market-              frequently asked questions), and other
                                             • Employee safe harbor (42 CFR                        rate items or services from a provider or             guidance are available on our Web site
                                           1001.952(i)),                                           supplier? Is compensation tied, directly              at http://oig.hhs.gov.
                                             • Electronic health records items and                 or indirectly, to Federal health care                    The following discussion highlights
                                           services safe harbors (42 CFR                           program reimbursement? Is the                         several known areas of potential risk
                                           1001.952(y)), and                                       determination of fair-market value based              under the anti-kickback statute. The
                                             • Managed care and risk sharing                                                                             propriety of any particular arrangement
                                                                                                   upon a reasonable methodology that is
                                           arrangements safe harbors (42 CFR                                                                             can only be determined after a detailed
                                                                                                   uniformly applied and properly
                                           1001.952(m), (t), and (u)).                                                                                   examination of the attendant facts and
                                             To receive protection, an arrangement                 documented?
                                           must fit squarely in a safe harbor. Safe                   • Nature of items or services                      circumstances. The identification of a
                                                                                                   provided. Are items and services                      given practice or activity as ‘‘suspect’’ or
                                           harbor protection requires strict                                                                             as an area of risk does not mean it is
                                           compliance with all applicable                          actually needed and rendered,
                                                                                                   commercially reasonable, and necessary                necessarily illegal or unlawful, or that it
                                           conditions set out in the relevant                                                                            cannot be properly structured to fit in a
                                           regulation.94 Compliance with a safe                    to achieve a legitimate business
                                                                                                   purpose?                                              safe harbor. It also does not mean that
                                           harbor is voluntary. Failure to comply
                                           with a safe harbor does not mean an                        • Potential Federal program impact.                the practice or activity is not beneficial
                                                                                                   Does the remuneration have the                        from a clinical, cost, or other
                                           arrangement is illegal per se.                                                                                perspective. Instead, the areas identified
                                           Nevertheless, we recommend that                         potential to affect costs to any of the
                                                                                                   Federal health care programs or their                 below are practices that have a potential
                                           nursing facilities structure arrangements                                                                     for abuse and that should receive close
                                           to fit in a safe harbor whenever possible.              beneficiaries? Could the remuneration
                                                                                                   lead to overutilization or inappropriate              scrutiny from nursing facilities.
                                             Nursing facilities should evaluate
                                           potentially problematic arrangements                    utilization?                                          1. Free Goods and Services
                                           with referral sources and referral                         • Potential conflicts of interest.
                                                                                                   Would acceptance of the remuneration                     OIG has a longstanding concern about
                                           recipients that do not fit into a safe                                                                        the provision of free goods or services
                                           harbor by reviewing the totality of the                 diminish, or appear to diminish, the
                                                                                                   objectivity of professional judgment?                 to an existing or potential referral
                                           facts and circumstances, including the                                                                        source. There is a substantial risk that
                                           intent of the parties. Depending on the                 Are there patient safety or quality-of-
                                                                                                   care concerns? If the remuneration                    free goods or services may be used as a
                                           circumstances, some relevant factors                                                                          vehicle to disguise or confer an
                                           include:                                                relates to the dissemination of
                                                                                                   information, is the information                       unlawful payment for referrals of
                                             • Nature of the relationship between                                                                        Federal health care program business.
                                           the parties. What degree of influence do                complete, accurate, and not misleading?
                                                                                                      • Manner in which the arrangement                  For example, OIG gave the following
                                           the parties have, directly or indirectly,                                                                     warning about free computers in the
                                           on the generation of business for each                  is documented. Is the arrangement
                                                                                                   properly and fully documented in                      preamble to the 1991 safe harbor
                                           other?                                                                                                        regulations:
                                             • Manner in which participants were                   writing? Are the nursing facilities and
                                           selected. Were parties selected to                      outside providers and suppliers                         A related issue is the practice of giving
                                           participate in an arrangement in whole                  documenting the items and services                    away free computers. In some cases the
                                                                                                   they provide? Is the nursing facility                 computer can only be used as part of a
                                             94 Parties to an arrangement cannot obtain safe       monitoring items and services provided                particular service that is being provided, for
                                                                                                                                                         example, printing out the results of
                                           harbor protection by entering into a sham contract      by outside providers and suppliers? Are
                                           that complies with the written agreement                                                                      laboratory tests. In this situation, it appears
                                                                                                   arrangements actually conducted
                                           requirement of a safe harbor and appears, on paper,
                                                                                                   according to the terms of the written
ebenthall on PROD1PC60 with NOTICES




                                           to meet all of the other safe harbor requirements,                                                              95 While informative for guidance purposes, an

                                           but does not reflect the actual arrangement between     agreements? It is the substance, not the              OIG advisory opinion is binding only with respect
                                           the parties. In other words, in assessing compliance    written form, of an arrangement that is               to the particular party or parties that requested the
                                           with a safe harbor, the question is not whether the     determinative.                                        opinion. The analyses and conclusions set forth in
                                           terms in a written contract satisfy all of the safe                                                           OIG advisory opinions are fact-specific.
                                           harbor requirements, but whether the actual             These inquiries—and appropriate                       Accordingly, different facts may lead to different
                                           arrangement satisfies the requirements.                 follow-up inquiries—can help nursing                  results.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00052   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                     56843

                                           that the computer has no independent value                • Equipment, computers, or software                    documented contemporaneously and
                                           apart from the service being provided and               applications 98 that have independent                    prior to payment to the provider of the
                                           that the purpose of the free computer is not            value to the nursing facility;                           supplies or services. To eliminate their
                                           to induce an act that is prohibited by the                • DME or supplies offered by DME                       risk, nursing facilities should structure
                                           statute * * *. In contrast, sometimes the
                                           computer that is given away is a regular
                                                                                                   suppliers for patients covered by the                    services arrangements to comply with
                                           personal computer, which the physician is               SNF Part A benefit;                                      the personal services and management
                                           free to use for a variety of purposes in                  • A laboratory phlebotomist                            contracts safe harbor 99 whenever
                                           addition to receiving test results. In that             providing administrative services;                       possible.
                                           situation the computer has a definite value to            • A hospice nurse providing nursing                       Nursing facilities should also adopt
                                           the physician, and, depending on the                    services for non-hospice patients; and                   and implement policies and procedures
                                           circumstances, may well constitute an illegal             • A registered nurse provided by a                     to minimize the risk of improper
                                           inducement.96                                           hospital.                                                pharmaceutical decisions tainted by
                                           Similarly, with respect to free services,               Nursing facilities should be mindful                     kickbacks. For example, depending on
                                           OIG observed in a Special Fraud Alert                   that, depending on the circumstances,                    the circumstances, a consultant
                                           that:                                                   these and similar arrangements may                       pharmacist employed by a long-term
                                             While the mere placement of a laboratory              subject the parties to liability under the               care pharmacy may face a potential
                                           employee in the physician’s office would not            anti-kickback statute, if the requisite                  conflict of interest when making
                                           necessarily serve as an inducement                      intent is present.                                       recommendations about a resident’s
                                           prohibited by the anti-kickback statute, the                                                                     drug regimen if a drug that is not on the
                                           statute is implicated when the phlebotomist             2. Services Contracts                                    pharmacy’s formulary is prescribed.100
                                           performs additional tasks that are normally             (a) Non-Physician Services                               Nursing facilities should establish
                                           the responsibility of the physician’s office                                                                     policies that make clear that all
                                           staff. These tasks can include taking vital                Often kickbacks are disguised as
                                                                                                   otherwise legitimate payments or are                     prescribing decisions must be based on
                                           signs or other nursing functions, testing for
                                           the physician’s office laboratory, or                   hidden in business arrangements that                     the best interests of the individual
                                           performing clerical services. Where the                 appear, on their face, to be appropriate.                patient.101 Drug switches may only be
                                           phlebotomist performs clerical or medical               In addition to the provision of free                     made upon authorization of the
                                           functions not directly related to the                   goods and services, the provision or                     attending physician, medical director,
                                           collection or processing of laboratory
                                                                                                   receipt of goods or services at non-fair-                or other licensed prescriber (except in
                                           specimens, a strong inference arises that he                                                                     certain limited circumstances where
                                           or she is providing a benefit in return for the         market value rates presents a heightened
                                                                                                   risk of fraud and abuse. Nursing                         permitted by State law, e.g., permissible
                                           physician’s referrals to the laboratory. In                                                                      generic substitutions or changes allowed
                                           such a case, the physician, the phlebotomist,           facilities often arrange for certain
                                                                                                   services and supplies to be provided to                  under a collaborative practice agreement
                                           and the laboratory may have exposure under
                                           the anti-kickback statute. This analysis                residents by outside suppliers and                       between a physician and a pharmacist).
                                           applies equally to the placement of                     providers, such as pharmacies; clinical                  Nursing facilities should consider
                                           phlebotomists in other health care settings,            laboratories; DME suppliers; ambulance                   implementing policies and procedures
                                           including nursing homes, clinics and                    providers; parenteral and enteral                        to monitor drug records for patterns that
                                           hospitals.97
                                                                                                   nutrition (PEN) suppliers; diagnostic                    may indicate inappropriate drug
                                                                                                   testing facilities; rehabilitation                       switching or steering. All staff and
                                             The principles illustrated by each of
                                                                                                   companies; and physical, occupational,                   practitioners involved in prescribing,
                                           the above examples also apply in the
                                                                                                   and speech therapists. These                             administering, and managing
                                           nursing facility context. The provision
                                                                                                   relationships need to be scrutinized                     pharmaceuticals should be educated on
                                           of goods or services that have
                                                                                                   closely under the anti-kickback statute                  the legal prohibition against accepting
                                           independent value to the recipient or
                                                                                                   to ensure that they are not vehicles to                  anything of value from a pharmacy or
                                           that the recipient would otherwise have
                                                                                                   disguise kickbacks from the suppliers                    pharmaceutical manufacturer to
                                           to provide at its own expense confers a
                                                                                                   and providers to the nursing facility to                 influence the choice of drug or to switch
                                           benefit on the recipient. This benefit
                                                                                                   influence the nursing facility to refer                  a resident from one drug to another.
                                           may constitute prohibited remuneration
                                           under the anti-kickback statute, if one                 Federal health care program business to                  (b) Physician Services
                                           purpose of the remuneration is to                       the suppliers and providers.                               Nursing facilities also arrange for
                                           generate referrals of Federal health care                  To minimize their risk, nursing                       physicians to provide medical director,
                                           program business.                                       facilities should periodically review                    quality assurance, and other services.
                                             Examples of suspect free goods and                    contractor and staff arrangements to                     Such physician oversight and
                                           services arrangements that warrant                      ensure that: (i) There is a legitimate
                                           careful scrutiny include:                               need for the services or supplies; (ii) the                99 42 CFR 1001.952(d).
                                             • Pharmaceutical consultant services,                 services or supplies are actually                          100 Long-term   care pharmacies, many of which
                                           medication management, or supplies                      provided and adequately documented;                      employ consultant pharmacists, have purchasing
                                                                                                   (iii) the compensation is at fair-market                 agreements with pharmaceutical manufacturers and
                                           offered by a pharmacy;                                                                                           contracts with health plans. In addition, long-term
                                             • Infection control, chart review, or                 value in an arm’s-length transaction;                    care pharmacies typically employ their own
                                           other services offered by laboratories or               and (iv) the arrangement is not related                  formularies for some residents. As a result of these
                                           other suppliers;                                        in any manner to the volume or value                     arrangements and contracts, long-term care
                                                                                                   of Federal health care program business.                 pharmacies may prefer that nursing facility
                                                                                                                                                            customers and residents use some drugs over
                                              96 56 FR 35952, 35978 (July 29, 1991), ‘‘Medicare
                                                                                                   Nursing facilities are well-advised to                   others.
                                           and State Health Care Programs: Fraud and Abuse;        have all of the preceding facts                            101 In all cases, prescribing decisions should be
ebenthall on PROD1PC60 with NOTICES




                                           OIG Anti-Kickback Provisions,’’ available on our                                                                 based upon the unique needs of the patients being
                                           Web site at http://oig.hhs.gov/fraud/docs/                98 There is a safe harbor for electronic health        served in that facility, established clinical
                                           safeharborregulations/072991.htm.                       records software arrangements at 42 CFR                  guidelines, and evidence of cost effectiveness. The
                                              97 59 FR 65372, 65377 (December 19, 1994),           1001.952(y), which can be used by nursing                determination of clinical efficacy and
                                           ‘‘Publication of OIG Special Fraud Alerts,’’            facilities. The safe harbor is available if all of its   appropriateness of the particular drugs should
                                           available on our Web site at http://oig.hhs.gov/        conditions are satisfied. The safe harbor does not       precede, and be paramount to, the consideration of
                                           fraud/docs/alertsandbulletins/121994.html.              protect free hardware or equipment.                      costs.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00053    Fmt 4703   Sfmt 4703    E:\FR\FM\30SEN1.SGM     30SEN1
                                           56844                         Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           involvement at the nursing facility                       familiarize themselves with the                        is not determinative of an anti-kickback
                                           contributes to the quality of care                        discount safe harbor at 42 CFR                         statute violation. Rather, the appropriate
                                           furnished to the residents. These                         1001.952(h). In particular, nursing                    question to ask is whether the discount
                                           physicians, however, may also be in a                     facilities should ensure that all                      is tied or linked, directly or indirectly,
                                           position to generate Federal health care                  discounts—including any rebates—are                    to referrals of other Federal health care
                                           program business for the nursing                          properly disclosed and accurately                      program business. When evaluating
                                           facility. For instance, these physicians                  reflected on their cost reports (and in                whether an improper connection exists
                                           may refer patients for admission. They                    any claims as appropriate) filed with a                between a discount offered to a nursing
                                           may order items and services that result                  Federal program. In addition, some                     facility and referrals of Federal health
                                           in an increased RUG or that are billable                  nursing facilities purchase products                   care program business billed by a
                                           separately by the nursing facility.                       through group purchasing organizations                 supplier or provider, suspect
                                           Physician arrangements need to be                         (GPO) to which they belong. Any                        arrangements include below-cost
                                           closely monitored to ensure that they                     discounts received from vendors who                    arrangements or arrangements at prices
                                           are not vehicles to pay physicians for                    sell their products under a GPO contract               lower than the prices offered by the
                                           referrals. As with other services                         should be properly disclosed and                       supplier or provider to other customers
                                           contracts, nursing facilities should                      accurately reported on the nursing                     with similar volumes of business, but
                                           periodically review these arrangements                    facility’s cost reports. Although there is             without Federal health care program
                                           to ensure that: (i) There is a legitimate                 a safe harbor for administrative fees                  referrals. Other suspect practices
                                           need for the services; (ii) the services are              paid by a vendor to a GPO,103 that safe                include, but are not limited to,
                                           provided; (iii) the compensation is at                    harbor does not protect discounts                      discounts that are coupled with
                                           fair-market value in an arm’s-length                      provided by a vendor to purchasers of                  exclusive provider agreements and
                                           transaction; and (iv) the arrangement is                  products.                                              discounts or other pricing schemes
                                           not related in any manner to the volume                                                                          made in conjunction with explicit or
                                                                                                     (b) Swapping                                           implicit agreements to refer other
                                           or value of Federal health care program
                                           business. In addition, prudent nursing                       Nursing facilities often obtain                     facility business. In sum, if any direct or
                                           facilities will maintain                                  discounts from suppliers and providers                 indirect link exists between a price
                                           contemporaneous documentation of the                      on items and services that the nursing                 offered by a supplier or provider to a
                                           arrangement, including, for example,                      facilities purchase for their own                      nursing facility for items or services that
                                           the compensation terms, time logs or                      account. In negotiating arrangements                   the nursing facility pays for out-of-
                                           other accounts of services rendered, and                  with suppliers and providers, a nursing                pocket and referrals of Federal business
                                           the basis for determining compensation.                   facility should be careful that there is no            for which the supplier or provider can
                                           Prudent facilities will also take steps to                link or connection, explicit or implicit,              bill a Federal health care program, the
                                           ensure that they have not engaged more                    between discounts offered or solicited                 anti-kickback statute is implicated.
                                           medical directors or other physicians                     for business that the nursing facility
                                                                                                     pays for and the nursing facility’s                    4. Hospices
                                           than necessary for legitimate business
                                           purposes. They will also ensure that                      referral of business billable by the                      Hospice services for terminally ill
                                           compensation is commensurate with the                     supplier or provider directly to                       patients are typically provided in the
                                           skill level and experience reasonably                     Medicare or another Federal health care                patients’ homes. In some cases,
                                           necessary to perform the contracted                       program. For example, nursing facilities               however, a nursing facility is the
                                           services. To eliminate their risk, nursing                should not engage in ‘‘swapping’’                      patient’s home. In such cases, nursing
                                           facilities should structure services                      arrangements by accepting a low price                  facilities often arrange for the provision
                                           arrangements to comply with the                           from a supplier or provider on an item                 of hospice services in the nursing
                                           personal services and management                          or service covered by the nursing                      facility if the resident meets the hospice
                                           contracts safe harbor 102 whenever                        facility’s Part A per diem payment in                  eligibility criteria and elects the hospice
                                                                                                     exchange for the nursing facility                      benefit. These arrangements pose
                                           possible.
                                                                                                     referring to the supplier or provider                  several fraud and abuse risks. For
                                           3. Discounts                                              other Federal health care program                      example, to induce referrals, a hospice
                                           (a) Price Reductions                                      business, such as Part B business                      may offer a nursing facility
                                                                                                     excluded from consolidated billing, that               remuneration in the form of free nursing
                                             Public policy favors open and                           the supplier or provider can bill directly             services for non-hospice patients;
                                           legitimate price competition in health                    to a Federal health care program. Such                 additional room and board
                                           care. Thus, the anti-kickback statute                     ‘‘swapping’’ arrangements implicate the                payments; 105 or inflated payments for
                                           contains an exception for discounts                       anti-kickback statute and are not                      providing hospice services to the
                                           offered to customers that submit claims                   protected by the discount safe harbor.
                                           to the Federal health care programs, if                   Nursing facility arrangements with                     ‘‘Medicare and State Health Care Programs: Fraud
                                           the discounts are properly disclosed and                  clinical laboratories, DME suppliers,                  and Abuse; OIG Anti-Kickback Provisions,’’
                                           accurately reported. However, to qualify                                                                         available on our Web site at http://oig.hhs.gov/
                                                                                                     and ambulance providers are some                       fraud/docs/safeharborregulations/072991.htm.
                                           for the exception, the discount must be                   examples of arrangements that may be                      105 The Medicare reimbursement rate for routine
                                           in the form of a reduction in the price                   prone to ‘‘swapping’’ problems.                        hospice services provided in a nursing facility does
                                           of the good or service based on an arm’s-                    As we have previously explained in                  not include room and board expenses, so payment
                                           length transaction. In other words, the                   other guidance,104 the size of a discount              for room and board may be the responsibility of the
                                           exception covers only reductions in the                                                                          patient. CMS, ‘‘Medicare Benefit Policy Manual,’’
                                                                                                                                                            Pub. No. 100–02, chapter 9, section 20.3, available
                                           product’s or service’s price.                               103 42 CFR 1001.952(j).                              on CMS’s Web site at http://www.cms.hhs.gov/
ebenthall on PROD1PC60 with NOTICES




                                             In conducting business, nursing                           104 See,e.g., OIG’s September 22, 1999, letter       Manuals/IOM/list.asp. For Medicaid patients, the
                                           facilities routinely purchase items and                   regarding ‘‘Discount Arrangements Between              State will pay the hospice at least 95 percent of the
                                           services reimbursable by Federal health                   Clinical Laboratories and SNFs’’ (referencing OIG      State’s Medicaid daily nursing facility rate, and the
                                                                                                     Advisory Opinion No. 99–2 issued February 26,          hospice is then responsible for paying the nursing
                                           care programs. Therefore, they should                     1999), available on our Web site at http://            facility for the beneficiary’s room and board.
                                                                                                     oig.hhs.gov/fraud/docs/safeharborregulations/          Section 1902(a)(13)(B) of the Act (42 U.S.C.
                                             102 42   CFR 1001.952(d).                               rs.htm; 56 FR 35952 at the preamble (July 29, 1991),   1396a(a)(13)(B)).



                                      VerDate Aug<31>2005     15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00054   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                                                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                      56845

                                           hospice’s patients.106 Nursing facilities                Arrangements with Hospices.108                          stands to forfeit by holding a bed given
                                           should be mindful that requesting or                     Whenever possible, nursing facilities                   the facility’s occupancy rate and patient
                                           accepting remuneration from a hospice                    should structure their relationships with               acuity mix). Reserved bed arrangements
                                           may subject the nursing facility and the                 hospices to fit in a safe harbor, such as               should be entered into only when there
                                           hospice to liability under the anti-                     the personal services and management                    is a bona fide need to have the
                                           kickback statute if the remuneration                     contracts safe harbor.109                               arrangement in place. Reserved bed
                                           might influence the nursing facility’s                   5. Reserved Bed Payments                                arrangements should serve the limited
                                           decision to do business with the                                                                                 purpose of securing needed beds, not
                                           hospice.107                                                 Sometimes hospitals enter into                       future referrals.
                                              Some of the practices that are suspect                reserved bed arrangements with nursing
                                                                                                    facilities to receive guaranteed or                     D. Other Risk Areas
                                           under the anti-kickback statute include:
                                              • A hospice offering free goods or                    priority placement for their discharged                 1. Physician Self-Referrals
                                           goods at below-fair-market value to                      patients.110 Under some reserved bed
                                                                                                    arrangements, hospitals provide                            Nursing facilities should familiarize
                                           induce a nursing facility to refer                                                                               themselves with the physician self-
                                           patients to the hospice;                                 remuneration to nursing facilities to
                                                                                                    keep certain beds available and open.                   referral law (section 1877 of the Act),112
                                              • A hospice paying room and board                                                                             commonly known as the ‘‘Stark’’ law.
                                           payments to the nursing facility in                      These arrangements could be
                                                                                                    problematic under the anti-kickback                     The physician self-referral law prohibits
                                           excess of what the nursing facility                                                                              entities that furnish ‘‘designated health
                                           would have received directly from                        statute if one purpose of the
                                                                                                    remuneration is to induce referrals of                  services’’ (DHS) from submitting—and
                                           Medicaid had the patient not been                                                                                Medicare from paying—claims for DHS
                                           enrolled in hospice. Any additional                      Federal health care program business
                                                                                                    from the nursing facility to the                        if the referral for the DHS comes from
                                           payment must represent the fair-market                                                                           a physician with whom the entity has a
                                           value of additional services actually                    hospital.111 Payments should not be
                                                                                                    determined in any manner that reflects                  prohibited financial relationship. This is
                                           provided to that patient that are not                                                                            true even if the prohibited financial
                                           included in the Medicaid daily rate;                     the volume or value of existing or
                                                                                                    potential referrals of Federal health care              relationship is the result of inadvertence
                                              • A hospice paying amounts to the                                                                             or error. Violations can result in
                                           nursing facility for additional services                 program business from the nursing
                                                                                                    facility to the hospital. Examples of                   refunding of the prohibited payment
                                           that Medicaid considers to be included                                                                           and, in cases of knowing violations,
                                           in its room and board payment to the                     some reserved bed payments that may
                                                                                                    give rise to an inference that the                      CMPs, and exclusion from the Federal
                                           hospice;                                                                                                         health care programs. Knowing
                                                                                                    arrangement is connected to referrals
                                              • A hospice paying above fair-market                                                                          violations of the physician self-referral
                                                                                                    include: (1) Payments that result in
                                           value for additional services that                                                                               law can also form the basis for liability
                                                                                                    double-dipping by the nursing facility
                                           Medicaid does not consider to be                                                                                 under the False Claims Act.
                                                                                                    (e.g., sham payments for beds that are
                                           included in its room and board payment                                                                              Nursing facility services, including
                                                                                                    actually occupied or for which the
                                           to the nursing facility;                                                                                         SNF services covered by the Part A PPS
                                                                                                    facility is otherwise receiving
                                              • A hospice referring its patients to a                                                                       payment, are not DHS for purposes of
                                                                                                    reimbursement); (2) payments for more
                                           nursing facility to induce the nursing                                                                           the physician self-referral law. However,
                                                                                                    beds than the hospital legitimately
                                           facility to refer its patients to the                                                                            laboratory services, physical therapy
                                                                                                    needs; and (3) excessive payments (e.g.,
                                           hospice;                                                 payments that exceed the nursing                        services, and occupational therapy
                                              • A hospice providing free (or below-                 facility’s actual costs of holding a bed or             services are among the DHS covered by
                                           fair-market value) care to nursing                       the actual revenues a facility reasonably               the statute.113 Nursing facilities that bill
                                           facility patients, for whom the nursing                                                                          Part B for laboratory services, physical
                                           facility is receiving Medicare payment                      108 OIG Special Fraud Alert on Fraud and Abuse       therapy services, occupational therapy
                                           under the SNF benefit, with the                          in Nursing Home Arrangements With Hospices,             services, or other DHS pursuant to the
                                           expectation that after the patient                       March 1998, available on our Web site at http://        consolidated billing rules are
                                           exhausts the SNF benefit, the patient                    oig.hhs.gov/fraud/docs/alertsandbulletins/
                                                                                                    hospice.pdf.                                            considered entities that furnish DHS.114
                                           will receive hospice services from that                     109 42 CFR 1001.952(d).                              Accordingly, nursing facilities should
                                           hospice; and                                                110 The Provider Reimbursement Manual provides       review all financial relationships with
                                              • A hospice providing staff at its                    as follows:                                             physicians who refer or order such
                                           expense to the nursing facility.                            Providers are permitted to enter into reserved bed   services to ensure compliance with the
                                              For additional guidance on                            agreements, as long as the terms of that agreement
                                                                                                    do not violate the provisions of the statute and        physician self-referral law.
                                           arrangements with hospices, nursing                      regulations which govern provider agreements,              When analyzing potential physician
                                           facilities should review OIG’s Special                   which (1) prohibit a provider from charging the         self-referral situations, the following
                                           Fraud Alert on Nursing Home                              beneficiary or other party for covered services; (2)    three-part inquiry is useful:
                                                                                                    prohibit a provider from discriminating against
                                                                                                    Medicare beneficiaries, as a class, in admission           • Is there a referral (including, but not
                                              106 Under the regulations at 42 CFR 418.80,
                                                                                                    policies; or (3) prohibit certain types of payments     limited to, ordering a service for a
                                           hospices must generally furnish substantially all of     in connection with referring patients for covered       resident) from a physician for a
                                           the core hospice service themselves. Hospices are        services. A provider may jeopardize its provider
                                           permitted to furnish non-core services under
                                                                                                                                                            designated health service? If not, there
                                                                                                    agreement or incur other penalties if it enters into
                                           arrangements with other providers or suppliers,          a reserved bed agreement that violates these
                                                                                                                                                              112 42 U.S.C. 1395nn.
                                           including nursing facilities. 42 CFR 418.56; CMS,        requirements.
                                           ‘‘State Operations Manual,’’ Pub. No. 100–07,               CMS, ‘‘Provider Reimbursement Manual,’’ Pub.           113 The  complete list of DHS is found at section
                                           chapter 2, section 2082C, available on CMS’s Web         No. 15–1, pt. 1, ch. 21, section 2105.3(D), available   1877(h)(6) of the Act (42 U.S.C. 1395nn(h)(6)) and
                                           site at http://www.cms.hhs.gov/Manuals/IOM/              on CMS’s Web site at http://www.cms.hhs.gov/            42 CFR 411.351.
ebenthall on PROD1PC60 with NOTICES




                                           list.asp.                                                Manuals/PBM.                                              114 See 66 FR 856, 923 (January 4, 2001),
                                              107 Under certain circumstances, a nursing facility      111 Nursing facilities should be mindful that        ‘‘Medicare and Medicaid Programs; Physicians’
                                           that knowingly refers to hospice patients who do         conditioning the offer of reserved beds specifically    Referrals to Health Care Entities With Which They
                                           not qualify for the hospice benefit may be liable for    on referrals of Federal health care program             Have Financial Relationships; Final Rule,’’
                                           the submission of false claims. The Medicare             beneficiaries by the hospital to the nursing facility   available on CMS’s Web site at http://
                                           hospice eligibility criteria are found at 42 CFR         would raise concerns under the anti-kickback            www.cms.hhs.gov/PhysicianSelfReferral/
                                           418.20.                                                  statute, even if no payments were made.                 Downloads/66FR856.pdf.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00055   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM        30SEN1
                                           56846                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           is no physician self-referral issue. If yes,            review their contracting processes to                 merely because the nursing facility
                                           then the next inquiry is:                               ensure that they obtain and maintain                  considers the Medicare or Medicaid
                                              • Does the physician (or an                          signed agreements covering all time                   payment to be inadequate (although a
                                           immediate family member) have a direct                  periods for which an arrangement is in                nursing facility may accept donations
                                           or indirect financial relationship with                 place. Second, many exceptions require                unrelated to the care of specific
                                           the nursing facility? A financial                       fair-market value compensation for                    patients). The supplemental payment
                                           relationship can be created by                          items and services actually needed and                would be a prohibited charge imposed
                                           ownership, investment, or                               rendered. Thus, nursing facilities                    by the nursing facility on another party
                                           compensation; it need not relate to the                 should have appropriate processes for                 for services that are already covered by
                                           furnishing of DHS. If there is no                       making and documenting reasonable,                    Medicare or Medicaid.118
                                           financial relationship, there is no                     consistent, and objective determinations              3. Medicare Part D
                                           physician self-referral issue. If there is a            of fair-market value and for ensuring
                                           financial relationship, the next inquiry                that needed items and services are                       Medicare Part D extends voluntary
                                           is:                                                     furnished or rendered. Nursing facilities             prescription drug coverage to all
                                              • Does the financial relationship fit in             should also implement systems to track                Medicare beneficiaries,119 including
                                           an exception? If not, the statute is                    non-monetary compensation provided                    individuals who reside in nursing
                                           violated.                                               annually to referring physicians (such as             facilities. Like all Medicare
                                           Detailed regulations regarding the                      free parking or gifts) and ensure that                beneficiaries, nursing facility residents
                                           italicized terms are set forth at 42 CFR                such compensation does not exceed                     who decide to enroll in Part D have the
                                           411.351 through 411.361 (substantial                    limits set forth in the physician self-               right to choose their Part D plans.120
                                           additional explanatory material appears                 referral regulations.                                 Part D plans offer a variety of drug
                                           in preambles to the final regulations: 66                  Further information about the                      formularies and have arrangements with
                                           FR 856 (January 4, 2001), 69 FR 16054                   physician self-referral law and                       a variety of pharmacies to dispense
                                           (March 26, 2004), 72 FR 51012                           applicable regulations can be found on                drugs to the plan’s enrollees. Nursing
                                           (September 5, 2007), and 73 FR 48434                    CMS’s Web site at http://                             facilities also enter into arrangements
                                           (August 19, 2008)).115                                  www.cms.hhs.gov/                                      with pharmacies to dispense drugs.
                                              Nursing facilities should pay                        PhysicianSelfReferral/. Information                   Typically, these are exclusive or semi-
                                           particular attention to their                           regarding CMS’s physician self-referral               exclusive arrangements designed to ease
                                           relationships with attending physicians                 advisory opinion process can be found                 administrative burdens and coordinate
                                           who treat residents and with physicians                                                                       accurate administration of drugs to
                                                                                                   at http://www.cms.hhs.gov/Physician
                                           who are nursing facility owners,                                                                              residents. When a resident is selecting
                                                                                                   SelfReferral/07_advisory_opinions.asp#
                                           investors, medical directors, or                                                                              a particular Part D plan, it may be that
                                                                                                   TopOfPage.
                                           consultants. The statutory and                                                                                the Part D plan that best satisfies a
                                           regulatory exceptions are key to                        2. Anti-Supplementation                               beneficiary’s needs does not have an
                                           compliance with the physician self-                       As a condition of its Medicare                      arrangement with the nursing facility’s
                                           referral law. Exceptions exist for many                 provider agreement and under                          pharmacy. CMS has stated that it
                                           common types of arrangements.116 To fit                 applicable Medicaid regulations and a                 expects nursing facilities ‘‘to work with
                                           in an exception, an arrangement must                    criminal provision precluding                         their current pharmacies to assure that
                                           squarely meet all of the conditions set                 supplementation of Medicaid payment                   they recognize the Part D plans chosen
                                           forth in the exception. Importantly, it is                                                                    by that facility’s Medicare beneficiaries,
                                                                                                   rates, a nursing facility must accept the
                                           the actual relationship between the                                                                           or, in the alternative, to add additional
                                                                                                   applicable Medicare or Medicaid
                                           parties, and not merely the paperwork,                                                                        pharmacies to achieve that
                                                                                                   payment (including any beneficiary
                                           that must fit in an exception. Unlike the                                                                     objective.’’ 121 CMS also suggests that a
                                                                                                   coinsurance or copayments authorized
                                           anti-kickback safe harbors, which are                                                                         nursing facility ‘‘could contract
                                                                                                   under those programs), respectively, for
                                           voluntary, fitting in an exception is                                                                         exclusively with another pharmacy that
                                                                                                   covered items and services as the
                                           mandatory under the physician self-                                                                           contracts more broadly with Part D
                                                                                                   complete payment.117 For covered items
                                           referral law. Compliance with a                                                                               plans.’’ 122
                                                                                                   and services, a nursing facility may not
                                                                                                                                                            CMS has explained that ‘‘[n]ursing
                                           physician self-referral law exception                   charge a Medicare or Medicaid
                                                                                                                                                         homes may, and are encouraged to,
                                           does not immunize an arrangement                        beneficiary, or another person in lieu of
                                                                                                                                                         provide information and education to
                                           under the anti-kickback statute.                        the beneficiary, any amount in addition
                                                                                                                                                         residents on all available Part D
                                           Therefore, arrangements that implicate                  to what is otherwise required to be paid
                                                                                                                                                         plans.’’ 123 When educating residents,
                                           the physician self-referral law should                  under Medicare or Medicaid (i.e., a cost-
                                           also be analyzed under the anti-                        sharing amount). For example, an SNF                    118 See id.; see also CMS, ‘‘Skilled Nursing
                                           kickback statute.                                       may not condition acceptance of a                     Facility Manual,’’ Pub. No. 12, chapter 3, sections
                                              In addition to reviewing particular                  beneficiary from a hospital upon                      317 and 318, available on CMS’s Web site at
                                           arrangements, nursing facilities can                    receiving payment from the hospital or                http://www.cms.hhs.gov/Manuals/PBM/list.asp.
                                                                                                                                                           119 Section 1860D–1 of the Act (42 U.S.C. 1395w–
                                           implement several systemic measures to                  the beneficiary’s family in an amount
                                                                                                                                                         101).
                                           guard against violations. First, many of                greater than the SNF would receive                      120 Id.
                                           the potentially applicable exceptions                   under the PPS. For Medicare and                         121 See CMS Survey and Certification Group’s
                                           require written, signed agreements                      Medicaid beneficiaries, a nursing                     May 11, 2006, letter to State Survey Agency
                                           between the parties. Nursing facilities                 facility may not accept supplemental                  Directors, available on CMS’s Web site at http://
                                           should enter into appropriate written                   payments, including, but not limited to,              www.cms.hhs.gov/SurveyCertificationGenInfo/
                                                                                                                                                         downloads/SCLetter06–16.pdf. This letter
                                           agreements with physicians. In                          cash and free or discounted items and
ebenthall on PROD1PC60 with NOTICES




                                                                                                                                                         communicates CMS’s current guidance on these
                                           addition, nursing facilities should                     services, from a hospital or other source             Part D issues. As the Part D program evolves,
                                                                                                                                                         nursing facilities should keep current with any
                                             115 Available on CMS’s Web site at http://              117 Section 1866(a) of the Act (42 U.S.C.           guidance issued by CMS and conform their policies
                                           www.cms.hhs.gov/PhysicianSelfReferral/.                 1395cc(a)); 42 CFR 489.20; section 1128B(d) of the    and procedures accordingly.
                                             116 Section 1877(b)–(e) of the Act (42 U.S.C.                                                                 122 Id.
                                                                                                   Act (42 U.S.C. 1320a–7b(d)); 42 CFR 447.15; 42 CFR
                                           1395nn(b)–(e)). See also 42 CFR 411.351–.357.           483.12(d)(3).                                           123 Id.




                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00056   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
                                                                     Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices                                                      56847

                                           nursing facilities should ensure that the               information about how it applies can be                 prevention, detection, and resolution of
                                           information provided is complete and                    found on the Web site of the                            quality of care and compliance
                                           objective. It may be helpful for nursing                Department’s Office for Civil Rights                    problems. Good compliance practices
                                           facilities to walk residents through the                (OCR).127 Questions about the Privacy                   may include the development of a
                                           important details of the plans available                Rule should be submitted to OCR.128                     mechanism, such as a ‘‘dashboard,’’ 131
                                           to the residents, including items such as                  The Privacy Rule gives covered                       designed to communicate effectively
                                           premium and cost-sharing structures,                    nursing facilities and other covered                    appropriate compliance and
                                           and to discuss the extent to which each                 entities some flexibility to create their               performance-related information to a
                                           plan does, or does not, provide coverage                own privacy procedures. Each nursing                    nursing facility’s board of directors and
                                           of the resident’s medications. Nursing                  facility should make sure that it is                    senior officers. The dashboard or other
                                           facilities must be particularly careful,                compliant with all applicable provisions
                                                                                                                                                           communication tool should include
                                           however, not to act in ways that would                  of the Privacy Rule, including standards
                                                                                                                                                           quality of care information. Further
                                           frustrate a beneficiary’s freedom of                    for the use and disclosure of PHI with
                                                                                                   and without patient authorization and                   information and resources about quality
                                           choice in choosing a Part D plan. As
                                                                                                   the provisions pertaining to permitted                  of care dashboards are available on our
                                           stated by CMS, ‘‘[u]nder no
                                           circumstances should a nursing home                     and required disclosures.                               Web site.132
                                           require, request, coach or steer any                       The HIPAA Security Rule specifies a                     When communication tools such as
                                           resident to select or change a plan for                 series of administrative, technical, and                dashboards are properly implemented
                                           any reason,’’ nor should it ‘‘knowingly                 physical security safeguards for covered                and include quality of care information,
                                           and/or willingly allow the pharmacy                     entities to ensure the confidentiality of               the directors and senior officers can,
                                           servicing the nursing home’’ to do the                  electronic PHI.129 Nursing facilities that              among other things: (1) Demonstrate a
                                           same.124 Providing residents with                       are covered entities were required to be                commitment to quality of care and foster
                                           complete and objective information                      compliant with the Security Rule by                     an organization-wide culture that values
                                           about all of the plans available to the                 April 20, 2005. The Security Rule                       quality of care; (2) improve the facility’s
                                           residents helps reduce the risk that                    requirements are flexible and scalable,                 quality of care through increased
                                           efforts to educate residents will lead to               which allows each covered entity to                     awareness of and involvement in the
                                           steering.                                               tailor its approach to compliance based                 oversight of quality of care issues; and
                                              Nursing facilities and their employees               on its own unique circumstances.
                                                                                                                                                           (3) track and trend quality of care data
                                           and contractors should not accept any                   Covered entities may consider their
                                                                                                                                                           (e.g., State agency survey results,
                                           payments from any plan or pharmacy to                   organization and capabilities, as well as
                                                                                                                                                           outcome care and delivery data, and
                                           influence a beneficiary to select a                     costs, in designing their security plans
                                                                                                   and procedures. Questions about the                     staff retention and turnover data) to
                                           particular plan. Beneficiary freedom of
                                                                                                   HIPAA Security Rule should be                           identify potential quality of care
                                           choice in choosing a Part D Plan is
                                                                                                   submitted to CMS.130                                    problems, identify areas in which the
                                           ensured by section 1860D–1 of the
                                           Act.125 Nursing facilities may not limit                                                                        organization is providing high quality of
                                                                                                   IV. Other Compliance Considerations                     care, and measure progress on quality of
                                           this choice in the Part D program.
                                                                                                   A. An Ethical Culture                                   care initiatives. Each dashboard should
                                           E. HIPAA Privacy and Security Rules                                                                             be tailored to meet the specific needs
                                                                                                     As laid out in the 2000 Nursing
                                              As of April 14, 2003, all nursing                                                                            and sophistication of the implementing
                                                                                                   Facility CPG, it is important for a
                                           facilities that conduct electronic                      nursing facility to have an                             nursing facility, its board members, and
                                           transactions governed by HIPAA are                      organizational culture that promotes                    senior officers. OIG views the use of
                                           required to comply with the Privacy                     compliance. OIG commends nursing                        dashboards, and similar tools, as a
                                           Rule adopted under HIPAA.126                            facilities that have adopted a code of                  helpful compliance practice that can
                                           Generally, the HIPAA Privacy Rule                       conduct that details the fundamental                    lead to improved quality of care and
                                           addresses the use and disclosure of                     principles, values, and framework for                   assist the board members and senior
                                           individuals’ personally identifiable                    action within the organization, and that                officers in fulfilling, respectively, their
                                           health information (called ‘‘protected                  articulates the organization’s                          oversight and management
                                           health information’’ or ‘‘PHI’’) by                     commitment to compliance. OIG                           responsibilities.
                                           covered nursing facilities and other                    encourages those facilities that have not                  In summary, the nursing facility
                                           covered entities. The Privacy Rule also                 yet adopted codes of conduct to do so.                  should endeavor to develop a culture
                                           covers individuals’ rights to understand                  In addition to codes of conduct, an
                                           and control how their health                                                                                    that values compliance from the top
                                                                                                   organization can adopt other measures                   down and fosters compliance from the
                                           information is used. The Privacy Rule                   to express its commitment to
                                           also requires nursing facilities to                                                                             bottom up. Such an organizational
                                                                                                   compliance. First, and foremost, a
                                           disclose PHI to the individual who is                                                                           culture is the foundation of an effective
                                                                                                   nursing facility’s leadership should
                                           the subject of the PHI or to the Secretary                                                                      compliance program.
                                                                                                   foster an organizational culture that
                                           of the Department of Health and Human                   values, and even rewards, the                              131 Much like the dashboard of a car, a
                                           Services under certain circumstances.
                                           The Privacy Rule and helpful                              127 OCR,
                                                                                                                                                           ‘‘dashboard’’ is an instrument that provides the
                                                                                                               ‘‘HHS—Office of Civil Rights—HIPAA,’’
                                                                                                                                                           recipient with a user-friendly (i.e., presented in an
                                                                                                   available at http://www.hhs.gov/ocr/hipaa/.
                                             124 Id.                                                  128 Nursing facilities can contact OCR by
                                                                                                                                                           appropriate context) snapshot of the key pieces of
                                                                                                                                                           information needed by the recipient to oversee and
                                             125 42 U.S.C. 1395w–101.                              following the instructions on its Web site, available
                                             126 45                                                at http://www.hhs.gov/ocr/contact.html, or by           manage effectively the operation of an organization
                                                    CFR parts 160 and 164, subparts A and E;                                                               and forestall potential problems, while avoiding
ebenthall on PROD1PC60 with NOTICES




                                           available at http://www.hhs.gov/ocr/hipaa/              calling the HIPAA toll-free number, (866) 627–7748.
                                                                                                      129 45 CFR parts 160 and 164, subparts A and C,      information overload.
                                           finalreg.html. In addition to the HIPAA Privacy and
                                                                                                                                                              132 See, e.g., OIG, ‘‘Driving for Quality in Long-
                                           Security Rules, facilities should also take steps to    available on CMS’s Web site at http://www.cms.gov/
                                           adhere to the privacy and confidentiality               SecurityStandard/02_Regulations.asp.                    Term Care: A Board of Director’s Dashboard—
                                           requirements for residents’ personal and clinical          130 Nursing facilities can contact CMS by            Government-Industry Roundtable,’’ available on our
                                           records, 42 CFR 483.10(e), and any applicable State     following the instructions on its Web site, http://     Web site at http://oig.hhs.gov/fraud/docs/
                                           privacy laws.                                           www.cms.hhs.gov/HIPAAGenInfo/.                          complianceguidance/Roundtable013007.pdf.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001   PO 00000   Frm 00057   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM    30SEN1
                                           56848                      Federal Register / Vol. 73, No. 190 / Tuesday, September 30, 2008 / Notices

                                           B. Regular Review of Compliance                           to the appropriate Federal and State                    Government, a nursing facility should
                                           Program Effectiveness                                     authorities.135 The reporting should                    provide all relevant information
                                             Nursing facilities should regularly                     occur within a reasonable period, but                   regarding the alleged violation of
                                           review the implementation and                             not longer than 60 days,136 after                       applicable Federal or State law(s) and
                                           execution of their compliance program                     determining that there is credible                      the potential financial or other impact of
                                           systems and structures. This review                       evidence of a violation.137 Prompt                      the alleged violation. The compliance
                                           should be conducted periodically,                         voluntary reporting will demonstrate                    officer, under advice of counsel and
                                           typically on annual basis. The                            the nursing facility’s good faith and                   with guidance from governmental
                                                                                                     willingness to work with governmental                   authorities, may be requested to
                                           assessment should include an
                                                                                                     authorities to correct and remedy the                   continue to investigate the reported
                                           evaluation of the overall success of the
                                                                                                     problem. In addition, prompt reporting                  violation. Once the investigation is
                                           program, as well as each of the basic
                                                                                                     of misconduct will be considered a                      completed, and especially if the
                                           elements of a compliance program
                                                                                                     mitigating factor by OIG in determining                 investigation ultimately reveals that
                                           individually, which include:
                                                                                                     administrative sanctions (e.g., penalties,              criminal, civil, or administrative
                                             • Designation of a compliance officer
                                                                                                     assessments, and exclusion) if the                      violations have occurred, the
                                           and compliance committee;
                                                                                                     reporting nursing facility becomes the                  compliance officer should notify the
                                             • Development of compliance
                                                                                                     subject of an OIG investigation.138                     appropriate governmental authority of
                                           policies and procedures, including                          To encourage providers to make
                                           standards of conduct;                                                                                             the outcome of the investigation. This
                                                                                                     voluntary disclosures to OIG, OIG                       notification should include a
                                             • Developing open lines of                              published the Provider Self-Disclosure
                                           communication;                                                                                                    description of the impact of the alleged
                                                                                                     Protocol.139 When reporting to the                      violation on the applicable Federal
                                             • Appropriate training and teaching;
                                             • Internal monitoring and auditing;                                                                             health care programs or their
                                                                                                        135 Appropriate Federal and State authorities
                                             • Response to detected deficiencies;                                                                            beneficiaries.
                                                                                                     include OIG, CMS, the Criminal and Civil Divisions
                                           and                                                       of the Department of Justice, the U.S. Attorney in      VI. Conclusion
                                             • Enforcement of disciplinary                           relevant districts, the Food and Drug
                                           standards.                                                Administration, the Department’s Office for Civil          In today’s environment of increased
                                                                                                     Rights, the Federal Trade Commission, the Drug          scrutiny of corporate conduct and
                                             Nursing facilities seeking guidance for                 Enforcement Administration, the Federal Bureau of
                                           establishing and evaluating their                         Investigation, and the other investigative arms for     increasingly large expenditures for
                                           compliance operations should review                       the agencies administering the affected Federal or      health care, it is imperative for nursing
                                           OIG’s 2000 Nursing Facility CPG, which
                                                                                                     State health care programs, such as the State           facilities to establish and maintain
                                                                                                     Medicaid Fraud Control Unit, the Defense Criminal       effective compliance programs. These
                                           explains in detail the fundamental                        Investigative Service, the Department of Veterans
                                           elements of a compliance program.133                      Affairs, the Health Resources and Services              programs should foster a culture of
                                           Nursing facilities may also wish to                       Administration, and the Office of Personnel             compliance and a commitment to
                                           consult quality of care corporate
                                                                                                     Management (which administers the Federal               delivery of quality health care that
                                                                                                     Employee Health Benefits Program).                      begins at the highest levels and extends
                                           integrity agreements (CIA) entered into                      136 To qualify for the ‘‘not less than double

                                           between OIG and parties settling                          damages’’ provision of the False Claims Act, the        throughout the organization. This
                                           specific matters.134 Other issues a                       provider must provide the report to the Government      supplemental CPG is intended as a
                                           nursing facility may want to evaluate
                                                                                                     within 30 days after the date when the provider first   resource for nursing facilities to help
                                                                                                     obtained the information. 31 U.S.C. 3729(a).            them operate effective compliance
                                           are whether there has been an allocation                     137 Some violations may be so serious that they

                                           of adequate resources to compliance                       warrant immediate notification to governmental
                                                                                                                                                             programs that decrease errors, fraud,
                                           initiatives; whether there is a reasonable                authorities prior to, or simultaneous with,             and abuse and increase quality of care
                                           timetable for implementation of the                       commencing an internal investigation. By way of         and compliance with Federal health
                                                                                                     example, OIG believes a provider should                 care program requirements for the
                                           compliance measures; whether the                          immediately report misconduct that: (i) Is a clear
                                           compliance officer and compliance                         violation of administrative, civil, or criminal laws;   benefit of the nursing facilities and their
                                           committee have been vested with                           (ii) poses an imminent danger to a patient’s safety;    residents.
                                                                                                     (iii) has a significant adverse effect on the quality
                                           sufficient autonomy, authority, and                                                                                 Dated: September 24, 2008.
                                                                                                     of care provided to Federal health care program
                                           accountability to implement and enforce                   beneficiaries; or (iv) indicates evidence of a          Daniel R. Levinson,
                                           appropriate compliance measures; and                      systemic failure to comply with applicable laws or      Inspector General.
                                           whether compensation structures create                    an existing corporate integrity agreement, regardless
                                                                                                     of the financial impact on Federal health care          [FR Doc. E8–22796 Filed 9–29–08; 8:45 am]
                                           undue pressure to pursue profit over                      programs.                                               BILLING CODE 4152–01–P
                                           compliance.                                                  138 OIG has published criteria setting forth those

                                                                                                     factors that OIG takes into consideration in
                                           V. Self-Reporting                                         determining whether it is appropriate to exclude an
                                                                                                     individual or entity from program participation
                                                                                                                                                             DEPARTMENT OF HEALTH AND
                                             If the compliance officer, compliance                   pursuant to section 1128(b)(7) of the Act (42 U.S.C.    HUMAN SERVICES
                                           committee, or a member of senior                          1320a–7(b)(7)) for violations of various fraud and
                                           management discovers credible                             abuse laws. See 62 FR 67392 (December 24, 1997),        National Institutes of Health
                                           evidence of misconduct from any source                    ‘‘Criteria for Implementing Permissive Exclusion
                                                                                                     Authority Under Section 1128(b)(7) of the Social        Government-Owned Inventions;
                                           and, after a reasonable inquiry, believes                 Security Act.’’
                                           that the misconduct may violate                              139 For details regarding the Provider Self-
                                                                                                                                                             Availability for Licensing
                                           criminal, civil, or administrative law,                   Disclosure Protocol, including timeframes and
                                                                                                                                                             AGENCY: National Institutes of Health,
                                           the nursing facility should promptly                      required information, see 63 FR 58399 (October 30,
                                                                                                     1998), ‘‘Publication of the OIG’s Provider Self-        Public Health Service, HHS.
                                           report the existence of the misconduct                    Disclosure Protocol,’’ available on our Web site at     ACTION: Notice.
ebenthall on PROD1PC60 with NOTICES




                                                                                                     http://oig.hhs.gov/authorities/docs/
                                              133 2000 Nursing Facility CPG, supra note 2, at
                                                                                                     selfdisclosure.pdf. See also OIG’s April 15, 2008,      SUMMARY: The inventions listed below
                                           14289.                                                    Open Letter to Health Care Providers, available on
                                              134 OIG, ‘‘HHS—OIG—Fraud Prevention &                  our Web site at http://oig.hhs.gov/fraud/docs/          are owned by an agency of the U.S.
                                           Detection—Corporate Integrity Agreements,’’               openletters/OpenLetter4–15–08.pdf; OIG’s April 24,
                                           available on our Web site at http://oig.hhs.gov/          2006, Open Letter to Health Care Providers,             fraud/docs/openletters/
                                           fraud/cias.html.                                          available on our Web site at http://oig.hhs.gov/        Open%20Letter%20to%20Providers%202006.pdf.



                                      VerDate Aug<31>2005   15:35 Sep 29, 2008   Jkt 214001     PO 00000   Frm 00058   Fmt 4703   Sfmt 4703   E:\FR\FM\30SEN1.SGM   30SEN1
